<html>
<title> - THE STUDY OF PLAN COLOMBIA: AN ASSESSMENT OF SUCCESSES AND CHALLENGES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE STUDY OF PLAN COLOMBIA: AN ASSESSMENT OF SUCCESSES AND CHALLENGES
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 2, 2001
                               __________

                           Serial No. 107-24
                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
76-478                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                 Christopher A. Donesa, Staff Director
              Sharon Pinkerton, Professional Staff Member
                          Conn Carroll, Clerk
                     Tony Haywood, Minority Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2001....................................     1
Statement of:
    Beers, Rand, Assistant Secretary for International Narcotics 
      and Law Enforcement, Department of State; Donnie Marshall, 
      Administrator, Drug Enforcement Administration; Robert J. 
      Newberry, Principal Deputy Assistant Secretary of Defense 
      for Special Operations and Low Intensity Conflict, 
      Department of Defense; and General Peter Pace, USMC, 
      Commander-in-Chief, U.S. Southern Command, Department of 
      Defense....................................................    69
Letters, statements, etc., submitted for the record by:
    Beers, Rand, Assistant Secretary for International Narcotics 
      and Law Enforcement, Department of State:
        Information concerning an appropriated $300 million......   143
        Information concerning Blackhawks........................    78
        Information concerning on-the-ground dollars.............   122
        Information concerning Presidential 506 drawdowns........   146
        Prepared statement of....................................    72
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    68
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, prepared statement of...............    62
    Marshall, Donnie, Administrator, Drug Enforcement 
      Administration:
        Information concerning AWACS aircraft and aircrews.......   151
        Prepared statement of....................................    83
    Newberry, Robert J., Principal Deputy Assistant Secretary of 
      Defense for Special Operations and Low Intensity Conflict, 
      Department of Defense:
        Information concerning Tethered Aerostat Radar Site 
          Status.................................................   141
        Prepared statement of....................................    96
    Pace, General Peter, USMC, Commander-in-Chief, U.S. Southern 
      Command, Department of Defense:
        Information concerning lift capability...................   134
        Prepared statement of....................................   107
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     9
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4












 THE STUDY OF PLAN COLOMBIA: AN ASSESSMENT OF SUCCESSES AND CHALLENGES

                              ----------                              


                         FRIDAY, MARCH 2, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:34 a.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Gilman, Mica, Souder, Mrs. 
Davis of Virginia, and Ms. Schakowsky.
    Staff present: Christopher A. Donesa, staff director; 
Sharon Pinkerton and Charley Diaz, professional staff members; 
Tony Haywood and David Rapallo, minority counsels; Michael 
Yeager, minority senior oversight counsel; Ellen Rayner, 
minority chief clerk; and Teresa Coufal and Lorran Garrison, 
minority staff assistants.
    Mr. Souder. The subcommittee will now come to order.
    Good morning and thank you all for coming to our first 
subcommittee hearing for the 107th Congress. This is the start 
of an early series of concise hearings on our Nation's drug 
policy in which we hope to examine critical issues of both 
supply and demand.
    Today we will begin, or really, continue looking at Plan 
Colombia, an issue that is not only a key to American and 
Andean drug strategy but also a vital national interest and a 
cornerstone of our strengthening relationships with Latin 
America.
    Plan Colombia is coming to the forefront of the 
congressional and national agenda. Vice Chairman Gilman, 
Congressman Mica, and I have just returned from a subcommittee 
delegation to Colombia and several other Latin American 
nations. Over the President's Day recess, our Embassy in Bogota 
also hosted five other congressional delegations, one of which 
included Congresswoman Schakowsky, who I welcome to our hearing 
today.
    Earlier this week, Colombian President Pastrana met with 
President Bush at the White House. With the increasing 
attention, we scheduled this hearing to examine the current 
status of the implications of Plan Colombia and review 
requirements for continued U.S. support.
    We will consider other aspects and implications of Plan 
Colombia in future hearings in this series, including the views 
of outside groups and experts and specific issues such as human 
rights, support to law enforcement and alternative development. 
In fact, in an upcoming hearing, we will focus more 
specifically on the drug certification and human rights 
certification processes not only regarding Colombia but also 
including Mexico, Burma, Haiti, and other nations.
    We will move quickly to the witnesses' testimony and 
questioning, but first I want to emphasize a couple of points 
about Plan Colombia.
    First, it is important to understand that Plan Colombia is 
fundamentally, as it should be, an initiative of the Colombian 
Government and of the Colombian people. Any lasting or 
meaningful solution must come from within Colombia, and the 
Plan is an effort to address a broad spectrum of social, 
economic, and political issues which cannot and properly should 
not be resolved in any other way.
    It is equally apparent, however, that American assistance 
and cooperation with the plan is critical to make it work, and 
that the full support and commitment of the administration and 
Congress is essential to protecting our clear and vital 
national interests within our hemisphere. Our assistance is 
urgently needed and cannot come in half measures.
    Second, and along the same lines, Plan Colombia is not just 
about Colombia but is representative of an approach which we 
hope we can reinforce to spread throughout the entire Andean 
region, as Secretary of State Powell recently observed. In 
Bolivia, our delegation witnessed firsthand the remarkable 
success, which I think has been inadequately reported, that the 
government has had in virtually eradicating coca growth against 
tough odds.
    At the same time, we met with Peruvian officials and 
learned of the many difficulties their current interim 
government is facing. And earlier in the year, I met with 
Ecuadorian officials as well, who are concerned about 
traffickers moving along the border of Putumayo. All of this 
highlights great potential and great challenge and the constant 
need to consider the big picture as we proceed.
    Today, we have invited witnesses from the administration to 
discuss the current status of implementation of Plan Colombia 
and our assistance to Colombia. From the Department of State, 
we will hear from Assistant Secretary for International 
Narcotics and Law Enforcement Affairs, Rand Beers, who I would 
like to thank for having his Deputy, Ambassador Jim Mack, join 
our delegation at the Interparliamentary Drug Control 
Conference in Bolivia. From the Drug Enforcement 
Administration, we have the administrator, Donnie Marshall, who 
took a substantial portion of his time to accompany and work 
with our delegation. From our Defense Department, we have 
Robert Newberry, Principal Deputy for Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict. From 
the U.S. Southern Command, we have Commander-in-Chief, General 
Peter Pace, who I particularly thank for rearranging his 
schedule.
    Thanks to all of you for your willingness to testify on 
short notice and for accommodating us in your schedules.
    Along the same lines, I would like to recognize and thank 
our new ranking member, Congressman Cummings, who was unable to 
be here today due to schedule conflicts; but we have an 
arrangement to go ahead with this hearing and include some of 
his concerns in the upcoming hearing.
    Congresswoman Schakowsky, a member of the full committee 
and formerly of this subcommittee, will be sitting in his stead 
and again I welcome her.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.001
    
    [GRAPHIC] [TIFF OMITTED] T6478.002
    
    Mr. Souder. I would now like to recognize Ms. Schakowsky 
for an opening statement on behalf of the minority members.
    Ms. Schakowsky. Thank you very much, Mr. Chairman. 
Congratulations on your appointment to chair this important 
subcommittee. I appreciate your indulgence of my request to sit 
in on this hearing.
    As you know, I have been actively involved in the 
subcommittee's oversight of Plan Colombia in the past; and I 
will continue to closely follow the subject during the 107th 
Congress.
    I have a statement I would like to make and, in the 
interest of time, would like to submit a number of materials 
and some questions for today's witnesses for the record.
    Mr. Chairman, I recently had an opportunity, as you 
mentioned, to visit Colombia along with Congressman McGovern 
and a number of congressional staff, journalists, and others on 
a trip that was organized by the Washington Office on Latin 
American. We had a very busy 6 days which we had an opportunity 
to travel around Colombia and to meet with other various 
sectors of society that are impacted by the current U.S. 
policy. In addition to meeting with President Pastrana, the 
Minister of Defense, the Attorney General, the head of the 
National Police, the head of the Colombian Army and numerous 
other Colombian and U.S. officials, including Ambassador 
Patterson, we were able to hear testimony from hundreds of 
Colombian people.
    We heard from farmers and human rights workers in Putumayo. 
We met with nongovernmental organizations like Peace Brigades 
International and ASFADES. We met with communities of displaced 
people living in poverty because of the violence in Colombia. 
We met with Ambassadors from other countries and 
representatives from the United Nations, and we visited a peace 
community in San Jose de Apartado.
    Mr. Chairman, as you know, during previous hearings in the 
subcommittee about U.S. aid to Colombia, I raised numerous 
questions that U.S. aid to Colombia is too heavily weighted in 
helicopters and military hardware, instead of support for civil 
society, democratic institutions, and human rights defenders.
    I shared with my colleagues my fear that U.S. military 
involvement in Colombia may actually escalate the current 
conflict in that country. I have stated on numerous occasions 
that, in my belief, our current policy toward Colombia and the 
billions of dollars we are poised to send in addition to the 
over $1 billion appropriated last year will not achieve the 
stated goal of reducing the flow of illegal drugs to the United 
States.
    I have called attention to the fact that dollar for dollar, 
it is more effective to invest in treatment and prevention as 
opposed to interdiction and eradication at the source.
    I have also questioned whether the United States can be 
actively involved in counternarcotics efforts in Colombia 
without being drawn into the violence that rages in that 
country.
    Unfortunately, my recent trip has only reinforced and added 
to many of the concerns I had before going to Colombia. It is 
clear to me that collusion continues between the Colombian 
military and the paramilitary death squads in Colombia.
    The military has made ineffective and insufficient efforts 
to protect civilians who are targeted by paramilitary and 
guerrilla forces.
    Our fumigation efforts in Putumayo may be causing health 
problems for the local population, including children. And, 
despite the Embassy's enthusiasm about the accuracy of our 
spray planes, I heard testimony from farmers whose legal crops 
were destroyed, leaving them and their families without a 
source of income or food. Fortunately, Ambassador Patterson was 
with us in Putumayo; and she agreed to send medical 
professionals there to do more research on the possible human 
and environmental effects of aerial fumigation.
    This is a human rights emergency in Colombia. Peaceful 
civilians are harassed, robbed, and attacked on a daily basis. 
Entire communities have been displaced by the violence in 
Colombia; and despite their dire situation and commitments by 
the United States and Colombian Governments to help, there are 
hundreds of thousands of displaced Colombian people struggling 
to survive and failing to receive basic services actually 
estimated up to $1.8 million.
    The press in Colombia, while uncensored by the government, 
is censored by intimidation. Numerous journalists have been 
killed or forced into exile.
    While helicopters are on the way, fumigation is in full 
force, and U.S. military personnel are on the grounds, 
desperately needed funds for those charged with protecting 
against and investigating human rights abuse are still being 
held up by the United States.
    While I was in Colombia, there was a massacre in Cauca; and 
the human rights units of the Colombian prosecutor general's 
office did not even have the money to send investigators to the 
scene. The $3 million promised to the unit held up apparently 
because of a dispute between the State Department and the 
Department of Justice. The Human Rights Division of the 
National Police in Colombia has an operating budget of just 
$140,000. And, as you know, Members of Congress earn even more 
than that.
    Clear violations of human rights remain unpunished even 
when evidence of the perpetrators exist. The Santo Domingo 
massacre that took place on December 23, 1998 during which 17 
civilians, including 6 children were murdered, remains an 
unresolved case, despite extensive evidence of Colombian 
military involvement and a cover-up. The Colombian Air Force 
unit and others implicated in the case remain cleared to 
receive U.S. military aid despite the fact that this appears to 
be a clear breach of the Leahy law.
    A few days after I returned from Colombia, the State 
Department released its human rights report, and I am not going 
to read much of it, but let me just say that overall the 
government's human rights record remained poor. I recommend 
that everybody look carefully at that State Department report.
    My constituents are very concerned about the situation 
there. They want to help the Colombian people and so do I. So I 
don't want a mistake that my criticism is that we should not 
help fund Colombia, I believe that we should.
    What is even more troubling is that, despite the expressed 
will of Congress in attaching human rights conditions to the 
aid approved last year, the President saw fit to waive these 
conditions, a decision that has sent a message to the Colombian 
military that they can keep doing what they are doing and U.S. 
aid will continue to pour in.
    Let me just summarize my last concern, less than 2 weeks 
ago, U.S. citizens working for the private military contractor 
Dyncorp came under fire from FARC guerillas. The privatization 
of our military and police assistance to Colombia raises 
important oversight questions as we get drawn deeper into 
Colombia's war.
    The most obvious question is why do we need to outsource 
and privatize our efforts in Colombia? I think we need to 
examine this. And I would suggest, Mr. Chairman, a possible 
oversight hearing on this issue, on the outsourcing of the war 
and the contracting that we are doing in Colombia and its 
potential for drawing us further in.
    When we begin to consider additional aid for Colombia this 
year, I hope all of my colleagues will take a close look at 
what we will be trying to accomplish. I will also be working to 
include strong and enforceable human rights conditions on any 
future aid that cannot simply be waived.
    And, again, I really do appreciate your indulgence, and I 
would like to submit my full statement for the record and the 
questions that I have remaining.
    Mr. Souder. I thank you.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]
[GRAPHIC] [TIFF OMITTED] T6478.003

[GRAPHIC] [TIFF OMITTED] T6478.004

[GRAPHIC] [TIFF OMITTED] T6478.005

[GRAPHIC] [TIFF OMITTED] T6478.006

[GRAPHIC] [TIFF OMITTED] T6478.007

[GRAPHIC] [TIFF OMITTED] T6478.008

[GRAPHIC] [TIFF OMITTED] T6478.009

[GRAPHIC] [TIFF OMITTED] T6478.010

[GRAPHIC] [TIFF OMITTED] T6478.011

[GRAPHIC] [TIFF OMITTED] T6478.012

[GRAPHIC] [TIFF OMITTED] T6478.013

[GRAPHIC] [TIFF OMITTED] T6478.014

[GRAPHIC] [TIFF OMITTED] T6478.015

[GRAPHIC] [TIFF OMITTED] T6478.016

[GRAPHIC] [TIFF OMITTED] T6478.017

[GRAPHIC] [TIFF OMITTED] T6478.018

[GRAPHIC] [TIFF OMITTED] T6478.019

[GRAPHIC] [TIFF OMITTED] T6478.020

[GRAPHIC] [TIFF OMITTED] T6478.021

[GRAPHIC] [TIFF OMITTED] T6478.022

[GRAPHIC] [TIFF OMITTED] T6478.023

[GRAPHIC] [TIFF OMITTED] T6478.024

[GRAPHIC] [TIFF OMITTED] T6478.025

[GRAPHIC] [TIFF OMITTED] T6478.026

[GRAPHIC] [TIFF OMITTED] T6478.027

[GRAPHIC] [TIFF OMITTED] T6478.028

[GRAPHIC] [TIFF OMITTED] T6478.029

[GRAPHIC] [TIFF OMITTED] T6478.030

[GRAPHIC] [TIFF OMITTED] T6478.031

[GRAPHIC] [TIFF OMITTED] T6478.032

[GRAPHIC] [TIFF OMITTED] T6478.033

[GRAPHIC] [TIFF OMITTED] T6478.034

[GRAPHIC] [TIFF OMITTED] T6478.035

[GRAPHIC] [TIFF OMITTED] T6478.036

[GRAPHIC] [TIFF OMITTED] T6478.037

[GRAPHIC] [TIFF OMITTED] T6478.038

[GRAPHIC] [TIFF OMITTED] T6478.039

[GRAPHIC] [TIFF OMITTED] T6478.040

[GRAPHIC] [TIFF OMITTED] T6478.041

[GRAPHIC] [TIFF OMITTED] T6478.042

[GRAPHIC] [TIFF OMITTED] T6478.043

[GRAPHIC] [TIFF OMITTED] T6478.044

[GRAPHIC] [TIFF OMITTED] T6478.045

[GRAPHIC] [TIFF OMITTED] T6478.046

[GRAPHIC] [TIFF OMITTED] T6478.047

[GRAPHIC] [TIFF OMITTED] T6478.048

[GRAPHIC] [TIFF OMITTED] T6478.049

[GRAPHIC] [TIFF OMITTED] T6478.050

[GRAPHIC] [TIFF OMITTED] T6478.051

    Mr. Souder. It gives me great pleasure to introduce and 
recognize the new vice chairman, the distinguished vice 
chairman of the subcommittee, Congressman Gilman of New York.
    Mr. Gilman. Mr. Chairman, we commend you for taking on the 
responsibilities of the problems in international narcotics in 
this committee. I want to thank you for conducting this 
important hearing today on Plan Colombia.
    Our congressional Souder delegation returned just a few 
days ago from visiting Colombia, visiting Bolivia and our 
Forward Operating Locations in the Americas; and we were able 
to participate in a very important international drug 
parliament conference in Santa Cruz, where we were elated to 
find that 30 countries were represented at that forum and over 
170 delegates attended.
    We were also pleased that Donnie Marshall was able to join 
us, the Director of DEA, as well as representatives of the INL 
and many of our DEA personnel from that region were present.
    As we all know, Bolivia is a major drug-fighting success 
story within a sea of pessimism, as has been portrayed by the 
media, who contend that little can be done about illicit drugs. 
However, it has been demonstrated that where there is a 
political will and international support we can eliminate 
drugs, just as Bolivia is on the verge of doing at the present 
time.
    Bolivia can be held up as a model to the world in its 
successful efforts to eradicate its drug production. Within a 
few weeks, we think that will be reduced to a subzero.
    On the other hand, Colombia has become a basket case. 
Colombia's weak government is carving its nation into zones of 
impunity to appease the narcoguerillas. FARC, in turn, have 
responded to peace talks and gestures with more and more 
hostile attacks; and it is reported that the FARC have 
increased the coca production in its region by some 32 percent, 
that is 32 percent of an increase in that DMZ. And by some 
reports, it can go to even a higher figure this year.
    Regrettably, we have in Colombia a peace process without 
any peace. We have kidnappings, smuggling, drug production, all 
taking place within that zone of impunity.
    No sooner had President Pastrana claimed that the peace 
process was back on track, in recent days, the FARC responded 
by killing 10 innocent hikers. While we were visiting Colombia, 
the FARC shot down a Colombian National Police Huey II 
helicopter on a coca relief eradication and temporarily put out 
of commission one of the new CNP Blackhawks, just an hour after 
we had inspected it, by severing its fuel cell with hostile gun 
fire. Some peace process.
    With regard to U.S. policy, our bureaucracy reflects some 
frustrating confusion on the role of the counterdrug police in 
Colombia in comparison to that of the Colombian Army, as that 
recent Huey II shot down clearly demonstrated while we visited 
that beleaguered nation.
    Following 4 days of formally requesting the Colombian 
Army's assistance for security on the ground in that particular 
coca eradication effort in Caqueta, the Colombian police began 
their eradication without having any protective Army support, 
even though they had requested support for that eradication 
effort 4 days prior to undertaking it.
    As a result, the Huey II was shut down, a police pilot was 
hospitalized in Bogota, where our staff was able to visit with 
him. We were informed that the Colombia Army's counternarcotics 
battalion did not help, because they were out destroying low-
level coca leaf processing labs, which normally is a law 
enforcement function supposed to be conducted by the police.
    In Plan Colombia, we were led to believe it was going to be 
clear that the police would do the eradication after the Army 
first secured the area to avoid any aerial shoot downs. The 
morale of the Colombian counternarcotics police regrettably 
today is at a low point due to this conflict in policy.
    The Army has been claiming credit for all sorts of things 
like eradication, which the police have been doing. In many 
cases, as the shootdown incident points out, the Army is not 
doing what it needs to be doing, needlessly exposing valuable 
police assets and officers and in some cases without any prior 
consultation and eradication operations when they need help.
    This certainly is not a pretty picture, and our Nation's 
policy lacks clarity. Clarity that is sadly needed right now. 
As we learned in Vietnam, that can result in real trouble.
    In addition, we are now finding that the scarce Colombian 
police drug-fighting resources are being diverted to the 
Colombian Army and away from any effective drug police who have 
a spotless human rights record--I might point out to our 
gentlewoman from Illinois, a spotless human rights record by 
the Colombian antinarcotics police--and their effective 
performance record in eradicating the illicit drugs to which 
both we and our DEA can attest to.
    A strong case that points to the erosion of support is that 
we learned of cheap, 50 caliber ammunition of Korean-era 
vintage, 1952, being foisted upon the CNP to be used in their 
defensive weapons on these new Blackhawks despite the fact that 
it violates the $750,000 gattling gun manufacturer's warranty 
resulting in a jamming of their weapons.
    This ammo cost saving, we have been informed, is to try to 
preserve money-per-round fired, while ignoring the cost of 
trying to secure $14 million helicopters that have been 
purchased at the costs of taxpayer money. Never mind protecting 
the priceless lives of courageous CNP officers and the men 
flying these choppers and fighting our fight. I think we have 
our priorities a little bit misconstrued and out of whack.
    This inexcusable list of problems goes on and on. Yes, we 
support the Colombia plan, but we want it to be an effective 
plan. We don't want the arm-chair generals diverting the funds 
that are needed by the warriors out there, who are doing a job, 
to other sources.
    Three of the six new Blackhawks that we gave to the CNP are 
now grounded. Why are they grounded? Because of a lack of spare 
parts which we have never shipped to the counternarcotics 
police.
    Two of the three police supply planes used to move vital 
fuel and herbicide to the front are also grounded, again, due 
to a lack of supplies.
    The police now have to rely on commercial trucks driven 
over dangerous roads or on commercial cargo flights, neither 
reliable in wartime and subject to a sudden FARC cutoff. Those 
commercial flight are costing up to $15,000 per day for moving 
few supplies alone.
    Does that make sense? These cargo planes have been 
requested by the police now for over 2 years, and still no 
response from our bureaucrats.
    We all recognize what such a supply problem means. We were 
told by the military on the ground that the supply line problem 
is Plan Colombia Achilles heel. Let me repeat that. That the 
supply line problem is Plan Colombia Achilles heel. If we mean 
what we say by Plan Colombia of over $1 billion to fight this 
war, then why aren't we giving the important equipment to the 
people who are fighting that war?
    Yet when we pressed and pressed from this committee, no one 
offered any plan for addressing the supply line problem, a 
question that we raised now for an undue amount of time.
    If the DOD and the State Department witnesses here cannot 
tell us today that they will make it a priority to get the CNP 
the kind of supply aircraft that they need now, I don't intend 
to support one more dollar for this plan; yet, I recognize how 
important the plan is and how needed it is.
    In addition, and I will end with this complaint, which is 
most troubling of all, we learned on the congressional 
delegation, the Souder delegation, and our visit that 
eradication of opium by the CNP with the new Blackhawks that we 
gave them last year was stopped, stopped while the coca 
eradication in the south took a priority. Yes, that coca 
eradication is important, but so is the eradication of opium in 
the north.
    In calendar year 2000, the police eradicated a record 9,200 
hectares of opium in Colombia, the key ingredient in the deadly 
heroin that has been flooding our Nation.
    This year we are told that they are going to do less than 
one-third some 6,000 hectares of opium eradication. As a 
result, more of our young people caught up in the current 
heroin crisis here at home will die needlessly for a lack of an 
effective U.S. heroin strategy directed at Colombia where 70 
percent of our problem now originates.
    As the FBI, the DEA, and the U.S. Customs told our House 
Committee on International Relations 2 years ago, opium 
eradication is the only real viable heroin strategy that truly 
works. Regrettably, we predicted this mess in my November 14th 
letter cosponsored by a number of my colleagues to General 
McCaffrey. Copies are available for all. I called then for a 
mid-course correction and clarity in our U.S. policy, and I do 
so again today.
    It is clear that the CNP antidrug unit should be doing the 
police function and fighting drugs. As a Nation, we must also 
consider and debate clear and unambiguous counterinsurgency aid 
to the Colombian military to help preserve its democracy 
without any distorted effort and confusion in our antidrug 
policy, especially within our State Department, which has been 
making unwise arm-chair military decisions as we observed 
firsthand on our recent visit and after talking to the people 
out on the front line.
    We need today a high-level interagency task force to take 
control of our American policy in Colombia, working with our 
Colombian allies to preserve their democracy and at the same 
time stopping this massive flow of drugs from Colombia into our 
Nation.
    I intend to take this up with Secretary Powell urging him 
to clean house at Bogota and here in Washington as well, and in 
INL in particular and our State Department.
    We can and must make a mid-course correction before it is 
much too late. Our national security, our families, our 
children deserve nothing less. Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]
[GRAPHIC] [TIFF OMITTED] T6478.052

[GRAPHIC] [TIFF OMITTED] T6478.053

[GRAPHIC] [TIFF OMITTED] T6478.054

    Mr. Souder. We are also joined this morning by subcommittee 
member and distinguished immediate past chairman, Congressman 
John Mica of Florida.
    Do you have an opening statement?
    Mr. Mica. Thank you, Chairman Souder; and I am pleased to 
remain on the panel under your chairing this new effort to get 
our real war on drugs back in place in action.
    I share the concern of members of the panel who have 
expressed their outrage at Colombians who have been killed by 
either the right or the left. I think it is more than 30,000 to 
date in that country, which is such a beautiful country and a 
great neighbor. However, I am just as concerned that last year 
we surpassed 16,000 Americans who died as a direct result of 
illegal narcotic overdoses in the United States.
    So if we take the last 2 years, we have exceeded basically 
what has taken place in Colombia's civil war for some three 
decades on the streets of our communities, the silent war and 
death going on. I am very concerned about what is happening in 
our country.
    If you look at the homicides in this country that are less 
than the 16,000, probably half of those are also drug related. 
And then if we take the figures given to us by the former drug 
czar, Barry McCaffrey, he said if you extend that out and take 
all the deaths related last year, it exceeded 50,000. And 
nobody seems to give a wimp, particularly in the press. They 
are more concerned about hurting the hair on the back of some 
leftist narcoguerilla.
    I, too, returned and learned some interesting things. I 
learned that our Plan Colombia is still in shambles; that the 
history of the former administration is an absolute disaster, 
that they, in fact, displaced drug production, coca, in 
particular, and now heroin and poppy from Bolivia and Peru to 
Colombia first through their 1993 measures of stopping 
information sharing.
    How can you fight a war on drugs when you close it down, 
which they did in 1993? Not sharing information with those who 
could stop the production and trafficking of illegal narcotics.
    How can you fight a war in 1995 when they decertified and 
made a joke of our certification process without granting a 
national interest waiver and blocking for a number of years any 
real assistance to Colombia to stop the production, stop the 
growth of narcoterrorism? So what we have inherited from this 
administration is a disaster.
    The last several years, Mr. Gilman; myself; Mr. Souder; the 
Speaker of the House, former chairman of the subcommittee; we 
attempted to get aid to Colombia; and it was blocked. And then 
when they sent aid, they sent ammunition, we heard, that 
wouldn't fire. We asked for helicopters to be sent there, 
because in order to eradicate the drugs, you need helicopters 
or some way to get to these areas where they are first 
producing and dealing in the drugs.
    We finally got six helicopters, Blackhawks, to the National 
Colombian Police. We saw and we were told that three of them 
are operational, one is being cannibalized for parts and two 
were not operational.
    Now, how can you get the police there? Even in Colombia, 
the military are not law enforcement agents just like in the 
United States, they only can do surveillance, surround, and 
protect an area for defense purposes, and that is what they do 
for the police. Now how in heavens name can you get the police 
there when the main source of delivery is C-130's or 
helicopters?
    You heard here that one was shot down while we were there 
with inadequate defense of systems, also inadequate spare 
parts, inadequate maintenance, inadequate training, but how can 
you get troops there to protect that local populous and the 
police to do their law enforcement work when they have nine C-
130's and only one of them is operational?
    A military man from the United States told me that one 
national guard unit or possibly several on rotation could go 
down and in a few months train these people, and we could also 
supply spare parts which would be a unique approach to conduct 
this.
    So what we have had is the gang that can't shoot straight, 
trying to put together a $1.3 billion package. We have seen 
what works. We visited Bolivia. Bolivia pulled by hand the last 
few thousand acres of coca. They did it the hard way.
    We are spraying it. And I am pleased to report in the last 
90 days we have sprayed 29,000 hectares, which, if we could 
continue that program and get our equipment operational, with a 
little bit of determination and not much money, we can get a 
handle on coca and heroin production which are killing our kids 
in unprecedented numbers.
    We also learned that the Forward Operating Locations, which 
were formerly out of Panama and which the administration failed 
to negotiate a lease of that base, which could have cost us 
several million dollars, a small amount to lease from Panama, 
where we already had $10 billion in infrastructure, we are now 
building it at a cost of $150 million runways to replace 
Panama's forward surveillance operations in the drug war.
    We found that that is still 2 years off; that we don't have 
agreement by Netherlands to locate in the Antilles, and then we 
found that we are building runways for planes that we don't 
have, the AWACS which were diverted by the Clinton 
administration aren't even available even when the runways will 
be available.
    So there are many questions raised about the execution of 
the plan. It is my hope, and I join Mr. Gilman, if we don't 
have this together, I will not support another penny, if we 
don't have the proper leadership-executed plan.
    It doesn't take that much money. In Bolivia, about $40 
million, the plan that we worked on with President Banzer and 
the Vice President and others, they eradicated coca. We do know 
alternative development will work. And so far the U.N. has had 
about the best program, and we gave $5 million for alternative 
development in a contract so far out of a $1.3 billion program 
to the U.N. Office of Drug Control Policy, which is much better 
equipped than the United States and much more credible to deal 
in alternative development programs.
    We know the carrot and the stick does work. It has worked 
in Bolivia. Peru used a different approach. They shot the 
bastards down, and that worked. They caged the guerillas and 
that worked, and they jailed others and suspended civil rights. 
Well, that will work. I am not advocating that in each country.
    Each country has its problem, and Colombia, in particular, 
is a unique situation. But there is no reason in the world why 
we can't stop illegal narcotics production. And, yes, the 
liberals will say, oh, it is a treatment thing, and we can just 
put our money in treatment. Well, I will tell you, if you take 
that approach and not start a real war on drugs, you can use 
the Baltimore example, which went from a few thousand heroin 
addicts to 60,000.
    One in eight in the city of Baltimore, because of a liberal 
philosophy, tolerant philosophy, lack of law enforcement 
philosophy, is now an addict. And, thank God, we held a hearing 
there 1 year ago last month when the murders continued to hover 
over 300 consistently and decline in population increase in 
murders.
    I am pleased to report with higher--with one of Mr. 
Guliani's assistants that has fallen to about the 260 range 
with the help and the efforts of this subcommittee. So tougher 
enforcement, eradication, interdiction, and, yes, a balanced 
approach with treatment will work.
    It is a little bit lengthy statement, but as the former 
chairman, I get a little slack. Thanks, Mr. Chairman.
    Mr. Souder. Thank you.
    We are also joined by Congresswoman Davis of Virginia, a 
new member of our subcommittee. We want to welcome you. Do you 
have an opening statement as well?
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. It is a 
pleasure to be here, and I look forward to serving on the 
subcommittee.
    I do have an opening statement, but for the sake of time, I 
would ask that it be entered into the record.
    Mr. Souder. Thank you.
    [The prepared statement of Hon. Jo Ann Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.055
    
    Mr. Souder. Before proceeding, I would like to take care of 
the procedural matter first.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements, including the opening 
statements, questions for the hearing record; that any answers 
to the written questions provided by the witnesses also be 
included in the record.
    Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and the 
witnesses may be included in the hearing record; that all 
Members be permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    As an oversight committee, it is our standard practice to 
ask all of our witnesses to testify under oath.
    If the witnesses will now rise and raise your right hands, 
I will administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses have 
answered in the affirmative.
    We will now recognize the witnesses for their opening 
statements, and I would like to thank you again for being here 
today.
    You all are experienced witnesses. We have heard from each 
of you in this subcommittee, as well as other subcommittees on 
the Hill. But I will remind our audience that we ask our 
witnesses to limit their opening statements to 5 minutes and 
include any fuller statement they may wish to make in the 
record.
    Secretary Beers, do you have an opening statement?

STATEMENTS OF RAND BEERS, ASSISTANT SECRETARY FOR INTERNATIONAL 
  NARCOTICS AND LAW ENFORCEMENT, DEPARTMENT OF STATE; DONNIE 
   MARSHALL, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION; 
  ROBERT J. NEWBERRY, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT, 
DEPARTMENT OF DEFENSE; AND GENERAL PETER PACE, USMC, COMMANDER-
     IN-CHIEF, U.S. SOUTHERN COMMAND, DEPARTMENT OF DEFENSE

    Mr. Beers. Yes, sir. Thank you for taking my longer written 
statement for the record. Thank you for the opportunity for all 
of us to appear here today to talk about this enormously 
important subject of the implementation of Plan Colombia.
    As an overall judgment at this particular point in time 
recognizing that we are still early in this process, I believe 
that our efforts to date have been good, but that a great deal, 
a great deal more needs to be done, and a great deal of 
constant attention and effort both by Washington and by our 
people in the field will be necessary to carry this through in 
association with the people of Colombia, the forces of 
Colombia, but also other peoples and forces within the larger 
region.
    Last week, we were informed of our annual estimate with 
respect to Colombia, and I am disappointed to note that the 
overall coca cultivation in Colombia went from 120,500 hectares 
to 136,200 hectares. This represents an 11 percent increase 
from the proceeding year, and any increase is bad.
    I would add, however, this is the smallest increase that we 
have seen in several years, that the increases that did occur 
occurred mostly away from the areas of aerial eradication, and 
it does not include any information related to operations which 
began in Putumayo on December 18th.
    We are looking forward in the year ahead for the full 
effect of Plan Colombia to begin to help an overall effect on 
drug cultivation, but we are only at the beginning of that 
effort at this time.
    I have a longer list within my written statement, but let 
me just say with respect to the acquisition program that was 
requested and is being implemented in Plan Colombia, all of the 
aircraft that were to have been ordered have been ordered, 
except for one; and I will speak to that in a moment and all of 
the deliveries are, in fact, underway and have been briefed to 
this and other committees, including the 1N helicopters which 
are all in country, the Blackhawks which will arrive in July, 
the spray aircraft which will begin to arrive in July, the 
interceptors which will begin to arrive in July.
    With respect to the Huey IIs, we have completed an 
interagency review of the configuration for those Army 
helicopters; and we are in the process of negotiating a 
contract with U.S. Helicopter, even as we speak, in order to 
establish an appropriate delivery schedule for those aircraft.
    Having said that, I have to say that the issue of pilots 
and crews for all of these aircraft continue to remain an issue 
that we are working with the Colombians on and will continue, 
and that these schedules are all going to require constant 
attention and determination on the part of all of us to ensure 
that we can continue this significant buildup within Colombia 
in order to deal with these problems.
    In the area of alternative development and judicial reform, 
we have begun programs there, but we need to move faster. As 
was alluded to earlier by some of the opening testimony, we did 
begin Plan Colombia operations in Putumayo. We have sprayed 
25,000 hectares there between December 18 and February 5, and 
since then, another 10,000 hectares elsewhere in the country.
    We have disrupted more than 70 labs, including 5 cocaine 
hydrochloride labs; and we have 2,900 hectares of cultivation 
under contract with communities to be eliminated in association 
with alternative development.
    Finally, I would add, that with respect to the regional 
program, while $180 million was devoted to that effort in Plan 
Colombia, most of which went to Bolivia, this administration, 
the Bush administration, is intending to move forward with a 
much broader Andean regional initiative. It will encompass, in 
addition to Colombia, Bolivia, Peru, Ecquador, Brazil, 
Venezuela, and Panama.
    We do not have a final number for that request level yet, 
although the administration's guidance is that it will be 
larger than $500 million for the region overall.
    We expect to be prepared to brief that fully at the 
beginning of April along with the rest of the administration's 
budget.
    Let me stop there and turn to my colleagues for their 
statements. Thank you.
    [The prepared statement of Mr. Beers follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.056
    
    [GRAPHIC] [TIFF OMITTED] T6478.057
    
    [GRAPHIC] [TIFF OMITTED] T6478.058
    
    [GRAPHIC] [TIFF OMITTED] T6478.059
    
    Mr. Souder. In working this schedule for this morning, Mr. 
Gilman switched his schedule around to be here; and he asked 
me, because he has to leave, if he could ask Mr. Beers a few 
questions which I am sure Mr. Beers is looking forward to.
    These are the questions that we would like to have answered 
on the Colombian National Police items.
    Mr. Beers. One of my greatest pleasures is answering 
Congressman Gilman's questions.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Beers and I have had some other dialog in the past.
    Mr. Beers, 9 of the 10 Colombian Air Force C-130 transport 
planes are not flying, and only one of the three CNP DC-3s 
needed to move vital fuel and herbicide are flying, even before 
the next round of helicopters will arrive that will require 
more fuel.
    They tell us this supply line problem is the Achilles heel 
of Plan Colombia. And in your testimony, I regret to see that 
there is no mention of providing transport planes.
    Can you tell us, are there any plans to do that?
    Mr. Beers. Sir, we have two C-27 aircraft in Colombia, 
which belong to the air division of INL, which are flying in 
support of the Colombian National Police principally within 
Colombia.
    In addition to that, I can assure you that we will work to 
get those DC-3s up and running within Colombia. It has been a 
constant source of irritation to you and to me as well. The 
situation there is unacceptable, and we will work to deal with 
that.
    With respect to the C-130's----
    Mr. Gilman. Let me just interrupt in a moment. Will that be 
at an early date, Mr. Beers?
    Mr. Beers. Yes, sir.
    Mr. Gilman. How soon.
    Mr. Beers. Except for one of them, which is a deadline for 
major maintenance and corrosion control, which, unfortunately, 
is going to take some time, but we will get the other one back 
on-line.
    With respect to the C-130's that are Colombian Air Force, I 
will work with the Defense Department and U.S. Southern Command 
to see what we can do about those. Those have not been part of 
our regular program to date.
    Mr. Gilman. Of those 10 planes, 9 are not flyable right 
now. And with regard to the Blackhawks, to find that they are 
cannibalizing new Blackhawks in order to provide spare parts is 
incredible. They showed us the racks where spare parts are 
supposed to be there. They were cleaned out completely.
    What are your plans for providing the kind of spare parts 
that are needed?
    Mr. Beers. We will be signing a $29 million contract today 
with the Colombian National Police which will go toward filling 
these spares shortfalls. But I would add, sir, that your 
information about three of the Blackhawks only being mission 
capable was, unfortunately, incorrect. There were five that 
were mission capable on the day that you were there, only one 
of them was down, and it was down for 500-hour maintenance 
requirement.
    While it was down for the maintenance requirement, it is 
true, that some of the parts for that plane were borrowed in 
order to keep the other five aircraft mission capable. But on 
that day, sir, on that day, five of those aircraft could have 
been used in operations had the Colombian National Police 
chosen to do so.
    Since the beginning of this year, the operational readiness 
rate averaged over all of the days has been 66 percent, and for 
last year, the operational readiness rate for all of those 
Blackhawk helicopters was 78 percent, which is not unusually 
low. In fact, it is not considered to be a low rate.
    Mr. Gilman. 66 percent certainly isn't a high rate.
    Mr. Beers. I was talking about last year, sir. I'm sorry, 
this year the 66 percent is lower than we would like it to be.
    Mr. Gilman. What is the operational capability today of the 
Blackhawks? How many are capable today, this very day?
    Mr. Beers. I will get that for the record, sir. I can't 
tell you what the flight line is.
    Mr. Gilman. Will you provide that for the committee? I ask 
that it be made a part of our record.
    Mr. Beers. Yes, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.060
    
    Mr. Gilman. Is there going to be any additional supply 
plane moneys for the CNP in the fiscal year 2002 budget?
    Mr. Beers. Sir, we haven't finally determined the full 
specific programmatic content of that budget, and I am not in a 
position to say that at this particular point, sir.
    Mr. Gilman. Are you going to make a recommendation?
    Mr. Beers. I will look at that issue, and we will make a 
determination.
    Mr. Gilman. Not look at it. Are you going to make a 
recommendation that this Achilles heel be corrected, that we 
are going to provide supply planes by putting it in your 
budget?
    Mr. Beers. I said that I would make an effort to ensure 
that there is adequate lift transport. If that requires buying 
another aircraft, we will look at that option, yes, sir.
    Mr. Gilman. I understand the C-27s that you referred to are 
used by the Dyncorp Corp. and not by the CNP; is that correct?
    Mr. Beers. No, sir, that is not correct. They are used by 
Dyncorp to fly CNP assets.
    Mr. Gilman. But they are devoted to Dyncorp and not to----
    Mr. Beers. No, sir, they are devoted to the program overall 
and that includes support for the CNP. They do not fly 
resources for the Dyncorp for the air wing only. They fly 
resources in support of Plan Colombia.
    Mr. Gilman. But Dyncorp is the people who are flying them; 
is that correct?
    Mr. Beers. That is correct; yes, sir.
    Mr. Gilman. Dyncorp is a contract agency; isn't that 
correct?
    Mr. Beers. It is a contract agency of the----
    Mr. Gilman. It is not the counterdrug police, the 
counterdrug police agency; isn't that correct?
    Mr. Beers. Sir, we have one team; and we are conducting one 
fight down there. And the distinction between our air wing and 
the CNP is an unfair distinction. We are working together with 
them.
    We are supporting them. Not every asset that is in Colombia 
belongs to the Colombian National Police, and some of those 
assets do belong to the air wing, and they do fly in support of 
the Colombian National Police.
    Mr. Gilman. Are you saying we have a separate U.S. air wing 
down there.
    Mr. Beers. I am saying that we have for years had an 
American air division within NRL which has supported 
counternarcotics throughout the region, including in Colombia, 
and they have flown aircraft in Colombia.
    Mr. Gilman. Why are the counternarcotics police having 
trouble getting the supplies to the bases and have to do it by 
truck and by commercial airline when we have a separate air 
fleet of our own?
    Mr. Beers. Sir, we are supporting everybody. We are all 
working together. And, yes, there is a deficiency of aircraft, 
which I regret, and which we will work on. But I am saying it 
is not just focused within the CNP and the effort is not just 
from the CNP. This is an effort by the United States and the 
Government of Colombia working together.
    Mr. Gilman. Mr. Beers, we found this to be a real problem 
when we were down there. We were there right on the front line, 
and we hope that you are going to correct this at the earliest 
possible date.
    I want to thank you, Mr. Chairman; thank you for allowing 
me to intervene at this point. I have to get back to New York 
very quickly. I changed my schedule in order to be here at this 
important hearing, and we thank you for doing it.
    I want to commend our DEA and commend DEA Director Donnie 
Marshall for being with us throughout this CODEL that was led 
by Mr. Souder. You added a great deal to it.
    We want to thank Customs, too, who were present with us in 
this CODEL.
    I want to thank our military. General, our military has 
been doing an outstanding job in the forward-operating 
locations. However, I think the point raised by Mr. Mica with 
regard to having prematurely left Panama and then going out to 
try to get these forward-operating locations underway, we find 
it has left a lot to be desired. It will be 2 or 3 years before 
they will be fully operational. Some are partially operational. 
They, too, don't have the equipment that is needed.
    The cost of this will exceed, I understand, some $130 
million before they are done, if not more; $132 million to 
complete the construction and to provide the kind of effective 
forward-operating activity that we had at Panama. I hope our 
administration is going to reexamine the possibility of getting 
back to Panama despite the fact that we are moving ahead with 
some of these FOLs.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. We will put any additional questions 
you have into the record with Mr. Beers.
    We will go and proceed now in regular order with Mr. 
Marshall and your testimony.
    Mr. Marshall. Thank you, Mr. Chairman, and thank you for 
having me. I want to thank you, Mr. Chairman, and indeed the 
entire committee for the support that you have given to DEA 
over the years and, particularly, to the courageous men and 
women of DEA.
    I will make my comments brief. I do have a complete 
statement that I would like to submit for the record.
    I would like to start by pointing out that the 
international trafficking organizations that are based in 
Colombia do, I think, pose a substantial serious threat and a 
challenge to the national security of the United States.
    We have had some successes against the Medellin and Cali 
cartels over the years and those successes have resulted in a 
decentralization of the cocaine trade, and what we are seeing 
in the world today is a second generation of cocaine 
traffickers or, actually, a new type of cocaine trafficking 
organization.
    These organizations operate both through Mexico and through 
the Caribbean, and they control the production and distribution 
of cocaine and the flow of cocaine, but they no longer totally 
control the distribution of drugs inside the United States as 
Colombian traffickers once did.
    The vast majority of the cocaine base and hydrochloride 
destined for the United States is produced in laboratories in 
southern Colombia, and over the last 5 years, unfortunately, 
Colombia has become the major source of heroin in the United 
States. Now, as the Colombian Government expands and sustains 
their coke eradication operations, I would predict, I believe 
that any initial spillover effect may be limited to Colombia, 
moving back into the traditional growing areas of central 
Colombia and perhaps new cultivation in northern Colombia. 
Eventually though, if we sustain this, we could see coca 
cultivation and processing driven into Ecuador and Venezuela, 
perhaps Brazil, and perhaps back into Peru and Bolivia.
    Now, DEA is trying to guard against that by developing and 
promoting a regional strategy of intelligence gathering and 
criminal investigations. We have been instrumental in 
encouraging multilateral operations, operations across common 
borders, and, in fact, we have an international drug 
enforcement conference this year, April 3 to 5, in the 
Dominican Republic, and the theme of the conference is 
multiregional investigations and operations.
    The next thing that I am concerned about in Colombia is the 
connection between the FARC in Colombia and the drug trade. For 
quite a few years now, there has been an association between 
these leftist organizations and as well as right-wing 
paramilitary groups and the drug trade. They charge a surtax 
for protection and other services to the traffickers based in 
Colombia.
    The presence of those insurgents in the eastern lowlands 
and southern rainforests, I think, really hinders the Colombia 
Government's ability to conduct counterdrug operations in those 
areas. The paramilitary groups right now don't appear to be 
involved, as far as DEA sees, in any significant opium or coca 
or marijuana cultivation, but one of those leaders of one of 
the paramilitary groups has, in fact, stated in public that his 
group receives payments similar to the taxes levied by the FARC 
from coca growers in southern Colombia.
    Now, the Colombian National Police continue to pursue some 
very significant drug investigations in cooperation with DEA, 
and, in fact, those CNP results have been nothing short of 
remarkable over the last several years, and the actions of 
their CNP officers have been nothing short of heroic.
    We continue, DEA continues, to direct assets and resources 
at the command and control structures of the major 
international and Colombian drug trafficking organizations. 
That is our job, and ultimately all DEA programs in Colombia 
and, in fact, throughout the world ultimately focus on the 
identification and immobilization of these criminal drug 
organizations.
    We support that a number of ways, through our sensitive 
investigative units, the Andean Initiative, intelligence 
collection programs, and those units work simultaneously not 
only with the Colombians and regional law enforcement agencies, 
but also with DEA domestic offices in coordinated multinational 
transnational investigations.
    The programs that are in effect and in place in Colombia 
and throughout the region, I think, serve to complement Plan 
Colombia. Although DEA didn't receive any direct appropriations 
under Plan Colombia, we are about to receive $5 million in 
order to increase the capabilities of Colombian law enforcement 
agencies and the conduct of legal telephone communication 
intercepts. That is very badly needed because thus far that 
ability has been limited.
    I am concerned about one more thing, and I will try to end 
up very briefly here. I am concerned about extradition reform 
in Colombia. There was an extradition reform act of December 
1997 that was passed by the Colombia--it was an amendment to 
the Colombian Constitution. That has resulted in the successful 
extradition of 13 Colombian traffickers thus far. But a recent 
Supreme Court decision in Colombia requires that Colombian law 
enforcement authorities investigate subjects that we seek for 
extradition. If their involvement in Colombia is such that they 
could be indicted there, then a technicality or a double 
jeopardy-type clause kicks in that may interfere with their 
extradition to the United States.
    That is so important to us because extradition is one of 
the absolute most valuable tools that we have utilized against 
the Colombian traffickers, and it is really the one element of 
our program that is most feared by the Colombian traffickers 
and, for that matter, traffickers throughout the world. So we 
will continue to focus on our main objective of identifying, 
immobilizing, indicting, prosecuting and hopefully imprisoning 
the command and control leaders of these organizations.
    The involvement of Colombian military and indeed other 
elements of their government is necessary, it is laudable. At 
the same time, we have to continue to very aggressively support 
the civilian antidrug agencies such as the CNP in Colombia, as 
well as other law enforcement agencies throughout this region, 
because no one agency and no one country can win this fight 
alone.
    Once again, I thank you for the opportunity, and I will be 
happy to answer any questions at the appropriate time.
    Mr. Souder. Thank you. We will insert your full statement 
in the record and hopefully draw some of those out in the 
questions as well.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.061
    
    [GRAPHIC] [TIFF OMITTED] T6478.062
    
    [GRAPHIC] [TIFF OMITTED] T6478.063
    
    [GRAPHIC] [TIFF OMITTED] T6478.064
    
    [GRAPHIC] [TIFF OMITTED] T6478.065
    
    [GRAPHIC] [TIFF OMITTED] T6478.066
    
    [GRAPHIC] [TIFF OMITTED] T6478.067
    
    [GRAPHIC] [TIFF OMITTED] T6478.068
    
    [GRAPHIC] [TIFF OMITTED] T6478.069
    
    [GRAPHIC] [TIFF OMITTED] T6478.070
    
    [GRAPHIC] [TIFF OMITTED] T6478.071
    
    [GRAPHIC] [TIFF OMITTED] T6478.072
    
    Mr. Souder. Mr. Newberry.
    Mr. Newberry. Thank you for the opportunity to testify 
before the committee on the status of our implementation in 
Plan Colombia. I will just give a short, brief oral statement.
    Thanks to the supplemental resources the Congress provided 
us last year, both the Department of Defense and State 
Department are providing Colombians with some of the best 
equipment and training we have to offer. Of course, because 
some of this equipment is being procured new, some of the 
support is actually upgrading old systems, and some of the 
support involves base infrastructure construction, it will take 
probably a year or two before we complete the effort. But I 
think the initial equipment and training that the Department of 
State and DOD has provided the Colombians has quickly jump-
started the Colombians' tactical operations in the southern 
part of Colombia, and I think you have seen the results. The 
success is already apparent.
    That said, there is a long way to go. The push in southern 
Colombia is only a couple months new, and they have to maintain 
their current OPSTEMPO. The momentum alone achieved by success 
in southern Colombia is not automatically going to transfer to 
the rest of Colombia. It is a difficult situation, and I am 
sure they are going to need continued support from the United 
States and other countries, the support to sustain the 
equipment and the people we are already working with and 
support to enhance their capabilities even further.
    Last, I do want to reiterate one item regarding the 
activities of the U.S. military people in Colombia. We 
certainly have numerous policy and legal restrictions that 
frame our limits for counterdrug support in Colombia. Suffice 
to say the process is comprehensive, but every deployment order 
says in no uncertain terms that DOD personnel are not to 
accompany host nation personnel on operational missions. Our 
people there are to train and not to advise.
    Thank you very much. I will await your questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Newberry follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.073
    
    [GRAPHIC] [TIFF OMITTED] T6478.074
    
    [GRAPHIC] [TIFF OMITTED] T6478.075
    
    [GRAPHIC] [TIFF OMITTED] T6478.076
    
    [GRAPHIC] [TIFF OMITTED] T6478.077
    
    [GRAPHIC] [TIFF OMITTED] T6478.078
    
    [GRAPHIC] [TIFF OMITTED] T6478.079
    
    [GRAPHIC] [TIFF OMITTED] T6478.080
    
    [GRAPHIC] [TIFF OMITTED] T6478.081
    
    [GRAPHIC] [TIFF OMITTED] T6478.082
    
    Mr. Souder. I want to thank General Pace again for being 
here and for arranging the briefing we had at on our CODEL to 
set out and lay out SOUTHCOM's framework of how we are working, 
and also having representatives at each of the four landing 
locations to explain how we are developing those airfields, and 
our conversations we had in Ecuador as well as here in 
Washington. I look forward to your statement.
    General Pace. Mr. Chairman, thank you, and thank the 
members of the committee and indeed the entire Congress for 
your very strong bipartisan support of not only 
counternarcotics, but also all the military does for you.
    I, too, would like to ask you to accept my written 
statement for the record.
    As you know, sir, I have been in command of the U.S. 
Southern Command for just over 5 months, and, during that time, 
I visited 19 countries, to include each of the Andean Ridge 
countries, several of those multiple times. In fact, this past 
weekend I just completed my seventh visit to Colombia.
    In each country that I visited, I have met with the key 
leaders, and in each there has been a long discussion about 
counternarcotics and the effects that the illicit drug trade 
has had on their societies, and essentially in Colombia the 
attack that this illicit industry represents on the foundations 
of that democracy.
    I am proud and I appreciate very much your comments and 
those of Mr. Gilman about the U.S. military efforts in support 
of our friends in Colombia right now. The Counternarcotics 
Battalion and Brigade training is ongoing, as you know. The 
Brigade headquarters and two of the three battalions have been 
trained, and there are efforts ongoing in the field as we 
speak. The third battalion is being trained, and that will be 
completed this May.
    The integration of these DOD-trained battalions with the 
Department of State-provided helicopters and crews has done 
exceptionally well, and we have seen very good coordination and 
cooperation between the police and the military, especially in 
the Putumayo. There is certainly more that can be done there, 
but the initial efforts in cooperation with each other has been 
very, very good.
    Again, sir, I appreciate this opportunity to appear before 
you, and I look forward to answering your questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of General Pace follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.083
    
    [GRAPHIC] [TIFF OMITTED] T6478.084
    
    [GRAPHIC] [TIFF OMITTED] T6478.085
    
    [GRAPHIC] [TIFF OMITTED] T6478.086
    
    [GRAPHIC] [TIFF OMITTED] T6478.087
    
    [GRAPHIC] [TIFF OMITTED] T6478.088
    
    [GRAPHIC] [TIFF OMITTED] T6478.089
    
    [GRAPHIC] [TIFF OMITTED] T6478.090
    
    [GRAPHIC] [TIFF OMITTED] T6478.092
    
    [GRAPHIC] [TIFF OMITTED] T6478.093
    
    [GRAPHIC] [TIFF OMITTED] T6478.094
    
    [GRAPHIC] [TIFF OMITTED] T6478.095
    
    [GRAPHIC] [TIFF OMITTED] T6478.096
    
    [GRAPHIC] [TIFF OMITTED] T6478.097
    
    Mr. Souder. Let me start with Mr. Beers.
    In the comments from Mr. Newberry--and I wanted to make 
clear for the record that Plan Colombia, some of the public 
perception is that we have spent $1.3 billion, and what are the 
results that are occurring in Plan Colombia? Approximately how 
much of the dollars that were allocated are actually on the 
ground at this point in Colombia?
    Mr. Beers. Sir, in terms of actual on-the-ground dollars, I 
will have to give you a specific answer to that for the record. 
I don't have it.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.098
    
    [GRAPHIC] [TIFF OMITTED] T6478.099
    
    [GRAPHIC] [TIFF OMITTED] T6478.100
    
    Mr. Beers. I would tell you as a general proposition that 
most of the money with respect to Colombia at this particular 
point in time is not yet in Colombia. The helicopters, which we 
have provided in the form of the UH-1N helicopters, are in 
Colombia and operating. That is Plan Colombia money. The 
training and equipping that DOD and we have done is on the 
ground in Colombia and operating, and there are beginnings in 
other areas. But as Mr. Newberry quite correctly said, what we 
have done is contract for and established delivery schedules 
for the equipment which was appropriated for, and those will be 
delivered in Colombia on the schedule that is in my statement, 
and I can go into it in detail if you would like, sir.
    Mr. Souder. We will have the statement in the record.
    My primary concern is I want to make sure the record shows 
that while this committee has had differences with the past 
administration about how soon and how aggressive that effort 
should have been, the full impact of Plan Colombia is not being 
seen yet at this point, and that is to be measured over the 
delivery period of the equipment and the training.
    Another question in framing the Plan Colombia debate we are 
about to have in Congress in this year's budget, you said that 
the proposal coming to us will be in excess of $500 million. Is 
that for Plan Colombia and the Andean region combined?
    Mr. Beers. It is for Andean region initiatives which will 
include seven countries, sir. It is Colombia and the other six, 
yes, sir.
    Mr. Souder. There has also been a misnomer that I have seen 
in print and heard from other Members that we went from zero to 
$1.3 billion and now have this sustaining effort. Roughly what 
were we putting into the Andean region and Colombia pre-Plan 
Colombia?
    Mr. Beers. The INL contribution in that regard on an annual 
basis was between $150 million and $200 million a year. I would 
allow Mr. Newberry to talk about what the Defense Department 
contribution was.
    Mr. Souder. Mr. Newberry.
    Mr. Newberry. Yes. The baseline was probably around $100 
million, and the supplemental gave us specifically for 
Colombia--from DOD perspective was about $250 million. So you 
had a spike in fiscal year 2000 that carries out as we procure 
and build the installations, and then we will probably go down 
to our baseline, which will be approximately $100 million.
    Mr. Beers. That is for Colombia only.
    Mr. Newberry. For Colombia only. That is specific Colombia. 
There are things that support Colombia that is not captured in 
that. It doesn't capture aircraft support for detection and 
monitoring. Those things are sort of broadly covered under a 
different budget line. This is specific Colombia support.
    Mr. Souder. I just want to make sure the record shows as we 
evaluate that we didn't go from zero to $1.3 billion to 
whatever number this year's number is. We, in fact, had a trend 
line of investment that doesn't include the DEA investment 
which is not directly part of Plan Colombia, but which has been 
an increase in resources in the Andean region that has been 
fairly steady. In other words, whether or not we have a Plan 
Colombia, we are going to have a major investment there. This 
is a ramping up to see if we can turn the corner and get ahead 
of that.
    I would also like to note that--as you had in your written 
statement--that the 25,000 hectares, which is not necessarily 
what--that is not the final--in other words, you are going to 
give a report only what actually was shown on the ground as to 
actually and permanently eradicated, or semipermanently. That 
is roughly about 2.5 acres per hectare for people to 
understand, 62,000.
    Mr. Beers. Yes, sir.
    Mr. Souder. That, given the new projection of 136,000, it 
is still roughly 20 percent of the entire acreage under 
cultivation in Colombia. I would like you to provide for the 
record an explanation of why you concentrated all the resources 
in December on the coca, and what that window of opportunity 
was. What would a typical month in eradication be as opposed to 
the 25,000 that were sprayed?
    Mr. Beers. Typically in a given month prior to this, which 
is a 45-day period, sir, prior to that, a good month, a high-
quality month, of eradication of coca has been on the order of 
12,000, 10,000 to 12,000 hectares a month. We sustained an 
effort that was double our best month.
    Mr. Souder. And was that partly because you had the 
military units on the ground?
    Mr. Beers. That was because we massed for the first time 
ever all of our spray aircraft, and because we had a joint 
police-military operation which reduced the amount of problems 
with respect to security. Even then, sir, we still had some bad 
weather days. We did not fly every day during that period. In 
one case we went a week within that 45-day period without 
flying.
    Mr. Souder. Thank you.
    Mr. Mica.
    Mr. Mica. Thank you. Let me get right into a line of 
questioning that the chairman started out.
    OK. The eradication, Mr. Beers, of coca, has been, you 
said, 25,000 and 10,000, so we are up to 35,000 hectares. What 
is the total coca?
    Mr. Beers. The current estimate for the end of calendar 
year 2000 is 136,200 hectares.
    Mr. Mica. So in 4 or 5 months we have eliminated what, 20 
percent?
    Mr. Beers. In 45 days.
    Mr. Mica. What cost was that?
    Mr. Beers. You mean the dollar cost?
    Mr. Mica. Just a ballpark. A couple million, $5 million, 
$10 million?
    Mr. Beers. No, sir. It was on the order of, and I am not 
costing the cost of the aircraft, only O&M dollars, only the 
basis of that, on the order of about $5 million, sir.
    Mr. Mica. $5 million can get rid of 20 percent. I can't for 
the life of me not believe we can't get a few more bucks in. I 
know we are getting the stuff first that is easiest to get; is 
that correct?
    Mr. Beers. We are hitting the most concentrated area. But, 
please, sir, before you go on with that line of analysis, I was 
very careful to say I didn't give you any figures associated 
with the infrastructure and the aircraft and the people who are 
required to be there in order to use the gasoline and spare 
parts in order to effect this effort. We bought small planes, 
we bought helicopters.
    Mr. Mica. It is a very small part of $1.3 billion. The $1.3 
billion, of course, half of it goes to the military, 
approximately, or less than half, $516 million; the National 
Police, $115 million; $228 million for economic development. I 
get into a question on that. My point is a little bit of money 
can eradicate a lot of potential drugs.
    Mr. Beers. If everything is in place.
    Mr. Mica. OK. The other thing, too, is we are concerned a 
little bit about poppy eradication. What is the schedule and 
what is the record on poppy eradication, which, of course, 
produces heroin? Has one been done at the expense of the other?
    Mr. Beers. If you want to follow that line of analysis, you 
can, sir. What we have chosen to do last year was to work with 
the CNP, and they sprayed about 9,000 hectares of opium poppy.
    Mr. Mica. Out of a total of how many that exists of poppy?
    Mr. Beers. Sir, there are 2,500 hectares of opium poppy 
estimated to be in Colombia.
    Mr. Mica. It is possible to concentrate, and we will have a 
program that eradicates both; is that correct?
    Mr. Beers. Yes, sir. But what we have done is focus our 
forces in one place----
    Mr. Mica. Can we get rid of half of it in the next year?
    Mr. Beers. Of the opium poppy, sir?
    Mr. Mica. Both, with the spray schedule and others?
    Mr. Beers. If things are fortunate and we are able to 
contain additional growth, that is a possible objective. But if 
I could go back to the poppy for just a moment, sir, the 
discrepancy between the number of hectares we sprayed, which is 
well in excess of the number of hectares that exist, is because 
opium poppy grows in 90 days and you have to go back and spray 
it again and again and again in order to convince the campesino 
not to continue to grow it, because it is such an easy crop to 
grow.
    Mr. Mica. That is important. The most successful pattern 
that we could follow would be Bolivia. They pulled it out by 
hand, as I said, the hard way, but they also were replacing it 
with alternative development.
    Mr. Beers. Right. And we have a program for that.
    Mr. Mica. I met with the head of U.N. Office of Drug 
Control Policy, and I asked him how much work on alternative 
development had been contracted to them, because they have 
probably the best record in the world, and also more credible 
than the gringos or the United States going in and doing this 
or other folks. They said they got a $5 million contract.
    What are we doing as far as alternative development and 
contracting that out or getting it done, because it has to be 
done in sync, right?
    Mr. Beers. Yes, sir, that is the way that it works the 
best. We have had in association with the Government of 
Colombia a 3-year, $15 million program of alternative 
development with respect to opium----
    Mr. Mica. 3-year, $15 million program.
    Mr. Beers. Sir, with respect to opium poppy only. We are 
now going into the third year.
    Mr. Mica. What about the coca?
    Mr. Beers. We began this year with the funds that were made 
available from Plan Colombia.
    Mr. Mica. Out of $228 million, there is what, about $90 
million available?
    Mr. Beers. Yes, sir, for programs related to that, and 
there are Colombian Government programs.
    Mr. Mica. How quickly can we get that in, because, again, 
we are concerned about the peasants who are growing this stuff 
and that they have some alternative, and we found that if we 
eradicate it, they will go back to it if there is not some 
alternative. So it would have to work in sync.
    Mr. Beers. Yes, sir.
    Mr. Mica. What would be your schedule on getting the $90 
million?
    Mr. Beers. Our schedule with respect to the overall program 
is to work community by community to develop projects in 
which--and this is United States and Colombian Government 
working together, not United States only. These are Colombian 
officials executing these projects to work community by 
community to establish projects for up to 30,000 hectares over 
a 2-year period. We have now--thus far the Colombian Government 
has now thus far established projects to cover about 3,000 
hectares and 1,400 families. We hope by the beginning of April 
to have that total up to nearly 7,000 hectares.
    Mr. Mica. If you could give the subcommittee a schedule of 
what you intend to do and how we intend to disburse that, 
because by the end of September, that money is programmed 
through that time, and that is 10 percent of what we are 
eradicating, if we are doing----
    Mr. Beers. Sir, we are not intending to do alternative 
development with all of the coca in Colombia.
    Mr. Mica. Heroin also?
    Mr. Beers. No, no. We have categorized it into two 
different threats. There is industrial coca and small plot-
holder coca. We are only going to do the alternative 
development with the small plot-holder coca. We are not going 
to pay large agriculture industrial enterprises that are 
narcotraffickers to go into some sort of other business. They 
are criminals. We are going to deal with them that way.
    Mr. Mica. Absolutely. We have a good model. We have had 
someone who has conducted this. I strongly support the U.N. 
Efforts. That is coming from a pretty conservative Republican 
over, let's see, this is my right side, OK. But I have seen 
what they have done, and they have the credibility. So I think 
we could get some of that money out there, get somebody to do 
it, and give them an alternative as soon as possible.
    What kind of herbicide are you spraying?
    Mr. Beers. We are currently using a herbicide called 
glyphosate, sir.
    Mr. Mica. I had reports when I was down there that the drug 
dealers are using glyphosate to kill the weeds around the coca 
and the poppy plants.
    Mr. Beers. It is an herbicide.
    Mr. Mica. It is pretty dangerous stuff, isn't it?
    Mr. Beers. No, sir.
    Mr. Mica. It is killing the peasants.
    Mr. Beers. No, it is not, sir. We don't have any evidence 
to indicate it is killing peasants, sir. We tested it in the 
United States.
    Mr. Mica. They have severe health problems. We had the 
other Members on the other side who are down there hugging the 
guerrillas and the peasants saying that we are spraying them 
with toxic material.
    Mr. Beers. Sir, with all due respect to the reports that 
have come out----
    Mr. Mica. Has this stuff been tested?
    Mr. Beers. This has been tested and approved for use within 
the United States.
    Mr. Mica. Actually people are using it in their backyards 
to eradicate weeds?
    Mr. Beers. Yes, sir.
    Mr. Mica. You are telling me it won't hurt the hair or harm 
the skin of any little guerrilla?
    Mr. Beers. Sir, if you were to drink a concentrated 
substance of this, it would hurt you. We spray this in such a 
density that there is about a milliliter of this substance 
which lands on a square meter of ground. That is the way it is 
dispersed.
    Mr. Mica. The New York Times had a picture of a spray plane 
spraying peasants. Is this your effort to go after these little 
folks? We heard also testimony or an opening statement today 
that you are wiping out the livelihood of little peasants. Is 
that how you targeted this to start out?
    Mr. Beers. No, sir. We target--we go in in advance, we look 
where we are going to spray, and only then we come back and 
spray. We monitor what we have done after we have sprayed to 
make sure that we are hitting what we are trying to. If there 
is cultivation of legal crops within coca fields, we do not not 
spray that because it is a coca-producing field. If they are 
choosing to try to deceive us by putting legal crops within an 
illegal field, it is an illegal field. If they put their crops 
separately from the illegal field, we don't spray them.
    Mr. Mica. You heard great concern about getting parts, 
spare parts, down there. You said today you are going to sign 
an agreement with the police. I know this will work, I mean, if 
we can get this all together, and I appreciate what you have 
done, Mr. Beers. Sometimes there has been different signals 
from different folks about putting this all together, but it 
can work, and I know you have a lot of responsibility, and it 
is a huge project.
    So we are not here to beat you up, although that is fun 
sometimes. We do want it to work, and we really--if you see 
something that is missing in this, we have gone down and we are 
giving you our observations, and there is no question again 
with a little bit of money and getting this together that we 
can eradicate a lot of the supply.
    Mr. Beers. Thank you, sir. I appreciate that.
    Mr. Souder. Mr. Mica, let me take a turn, and I will get 
back to you.
    Mr. Mica. I haven't gotten to Pace. I will get Pace in the 
next round. Get some of that military to block the door there.
    Mr. Souder. I also want to move to Mr. Marshall next in the 
questioning. Could you elaborate on what you think the heroin 
problem is becoming in this country? Do you see that as a 
declining or growing problem in relation to cocaine?
    Mr. Marshall. I think it is a growing problem, Mr. 
Chairman, and we are quite concerned about that because we have 
seen that we are sort of a victim of our own success. We had a 
lot of success over the years until wiping out the Southeast 
Asian market or suppliers to the U.S. market, and to a certain 
degree the Southwest Asia suppliers. What we saw then 
unfortunately was that the Colombian traffickers saw that 
opportunity, and they took advantage of it to move into the 
U.S. market.
    What they did was they aggressively marketed this product, 
which is a pattern that we see with the Colombia-based and 
Mexican-based traffickers. They did such things as offering low 
prices and high purities in particularly East Coast markets. We 
had a lot of reports early on that they did such things as 
giving away free samples, they did such things as selling a few 
kilos of heroin with a shipment of cocaine as a condition of 
selling that cocaine. Their goal was to create a market for 
heroin.
    So with all of those elements coming together, they did 
manage to successfully introduce it into the United States. The 
reason I think the market is growing is because they have 
managed to market this brand of heroin, this more potent 
product, to a new type of user in the United States. It used to 
be that heroin was associated with junkies, with needles, with 
very just grungy, unsanitary conditions, and a lot of people, 
middle-class, middle-income, younger people, college students, 
didn't want any part of it because of the needle aspect of it 
and the filth associated with it.
    Well, because of the purity of Colombian heroin, this 
product could be inhaled or snorted in a similar fashion as 
people use cocaine. So you had naive people thinking that 
because it was used that way, it would not become addictive. So 
college people, professionals, people that never ordinarily 
would have touched it started using it. They quickly found that 
it was just as addictive, and they quickly--we quickly saw that 
they moved to the needle and really became traditional junkies 
in a large sense.
    We saw that particularly in Operation White Horse, where we 
worked very closely with the Colombian National Police and 
authorities in New York, Philadelphia, Delaware, and we took 
out an entire Colombia trafficking organization, heroin 
trafficking organization that was marketing that product to 
essentially weak and vulnerable people in those areas.
    So it is growing in regard to coke. I apologize for making 
that answer so lengthy, but I think it is important that we 
understand the situation.
    Mr. Souder. In the United States, would you say that--what 
percentage of the heroin in the United States would you say is 
coming from Colombia?
    Mr. Marshall. I think our estimate right now is 65-70 
percent from Colombia, of the U.S. market.
    Mr. Souder. And what was that--you said Asian heroin is 
declining. Has that shift occurred in the last year to 2?
    Mr. Marshall. It has occurred in the last 5 to 6 years, I 
would say. We managed to wipe Southeast Asia heroin largely out 
of the market in the early mid-nineties as a result of working 
with the Thai authorities, and again extradition was involved 
in an operation--the name of it escapes me right now, but we 
got a lot of the Southeast Asia heroin kingpins that we 
extradited back here. At the same time, the Thai authorities 
did a magnificent job over there and basically we hit them when 
they were vulnerable and the Colombians stepped in. That is 
really in the last 5 or so years. That operation was Tiger Trap 
that we did in Southeast Asia.
    Mr. Souder. When we first started this debate most heavily 
in 1995 after the Republicans took over Congress and started 
focusing on cocaine, we, generally speaking, were focusing on 
the cocaine problem. You are telling us over that period of 
time when we have been focusing on the cocaine problem in 
Colombia, we have seen the traffic move from Asia in the mid-
nineties to Colombian heroin, and, second, are you seeing a 
rise in domestic use of heroin simultaneously?
    Mr. Marshall. That is correct, sir.
    Mr. Souder. Is there a particular reason why heroin would 
be grown in Colombia and not in other countries--or poppy, I 
should say?
    Mr. Marshall. Well, I am not an agricultural expert and I 
am not sure what specific conditions you have to have to grow 
the opium poppy. It is grown in many parts of the world. It is 
grown in Afghanistan, Southeast Asia, Burma, Mexico, Colombia. 
I would just assume that the temperatures and the growing 
season and the soil conditions are right in Colombia.
    If you would like, I will do a little research on what kind 
of soil conditions and that sort of stuff. But certainly the 
conditions in Colombia lend themselves to growing the opium 
poppy.
    Mr. Beers. And we are beginning to see indications in Peru 
as well.
    Mr. Souder. We heard in Ecuador they have some concerns, 
although not much evidence. Have you heard anything in Ecuador?
    Mr. Beers. I think the point that Donnie is making is 
absolutely correct. This is not a particularly geographic-
specific crop. It can be grown essentially everywhere, and it 
is an issue where the traffickers want to organize themselves 
to market it.
    Mr. Souder. Is it true it is best at 8,000 feet?
    Mr. Beers. It grows at lower altitudes as well, but that is 
what happens to be convenient in Colombia, and they are also at 
high altitude--the indications in Peru are also it is high 
altitude there. It would appear in part to be because that is 
more isolated, more difficult for government presence to effect 
law enforcement actions against it or for any government 
programs, for that matter, to be made available.
    Mr. Souder. Also I wanted to ask Mr. Marshall, in Colombia 
do you feel that, particularly as the--kind of the pressures 
increase, both in cocaine and heroin, that you have sufficient 
resources in DEA in Colombia?
    Mr. Marshall. Well, certainly if you ask me if I need more 
resources in Colombia or anywhere else, I would have to say 
that, yes, I do need more resources. We did in fact work and 
put in several requests for resources within Plan Colombia. 
Unfortunately, we did not receive any of those. We are about to 
receive $5 million or so for wire intercept program within our 
regular budget. We had requested, I believe, something on the 
order of seven new agent positions and three support positions 
for Colombia in the--we requested it for several years, but 
most recently in the 2002 budget, I believe, and have not 
received that thus far.
    But, yes, I would like to have not massive amounts of new 
resources, but modest amounts of new resources.
    Mr. Souder. Aren't most of the major operations we do 
dependent on intelligence?
    Mr. Marshall. Yes.
    Mr. Souder. Because when we are looking in the Caribbean 
Sea or the Pacific region, how else would we identify which 
airplanes are prospects?
    Mr. Marshall. Well, we identify--I mean various 
intelligence information comes to us in various ways. I mean, 
we have human sources, we have undercover sources, we have 
domestic investigations that feed into the whole picture, we 
have State and local law enforcement agencies that feed into 
it, and we have our aspect where we attack the communications. 
Frankly, when we combine them all, our ability to attack the 
communications is really, I think, our most beneficial, our 
most useful, our most productive element at the moment.
    There is so much cocaine being shipped into the United 
States, when you look at the amount of sea that the Coast Guard 
has to cover, you look at the amount of traffic coming over the 
Mexican border, you look at the amount of containers in the 
port of Miami or Los Angeles, you have to have intelligence 
information to really impact that.
    Mr. Souder. When we look at the map of Colombia and see in 
green, the biggest coca regions in the DMZ is in between those 
two regions. Do you have concerns based on your information 
that might be solidifying their operations, or they are using 
that as a base to in effect hide out?
    Mr. Marshall. Well, yes, that is certainly our concern. I 
have to confess that since we can't get in that area, we don't 
know totally what is going on. That is a concern of the 
National Police, our counterparts, as well.
    I don't think we have any real hard numbers or evidence to 
know what is going on in there. But I think it is reasonable to 
assume that since you have cultivations on the other side, that 
there is probably at least some of that going on inside the 
zone as well.
    Mr. Souder. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. We are a number of 
months into Plan Colombia and it is difficult sometimes from 
the time Congress appropriates until the time things are 
brought on line. I would like, Mr. Beers, if you could provide 
the subcommittee and, General Pace, if you could provide the 
subcommittee, with any recommendations for altering any of the 
funds that we have appropriated to date. It got to be a feeding 
frenzy sort of at the end, and whoever was the biggest gorilla 
on the block got the most money. We have also got quite a bit 
of money into nation building.
    Maybe you could give us a candid assessment of what is 
doable, expendable, and where our gaps may be. I would like 
that to come to the subcommittee within the next 2 weeks in 
case we need to go back to the appropriators or somebody and 
shift this around or look at where our gaps may be coming up.
    Mr. Chairman, would that be acceptable?
    Mr. Souder. Yes.
    Mr. Mica. General Pace, we have one trained operational 
unit to date. Is the second one now completely trained?
    General Pace. Sir, there are a brigade headquarters and 
three battalions. The brigade headquarters and two of the three 
battalions are trained and operational in the field now.
    Mr. Mica. Trained and operational?
    General Pace. Yes. The third will be done the last week in 
May, sir.
    Mr. Mica. You have all of the equipment and resources ready 
to move?
    General Pace. Sir, it is either on the ground or en route.
    Mr. Mica. Can you provide the committee with a schedule, 
again in writing, of what the date is for the third unit, what 
is missing from being on the ground or en route, as you said? 
Could you do that?
    General Pace. Certainly, sir. The date is around May 25th, 
sir. It may be 1 day on either side.
    Mr. Mica. You heard Mr. Gilman and myself express our 
frustration about--of course, we have the police with 
helicopters that are not flying or cannibalized for some 
reason, and I think that is all because today they are going to 
sign the agreement. Now, with the military, we were told, I 
believe, there is 1 out of 10, or 1 out of 9 C-130's that can 
transport troops and equipment. Is that the Air Force?
    General Pace. Sir, that is the Colombian Air Force; yes, 
sir.
    Mr. Mica. Why in heaven's name can't we do something to get 
those planes flying?
    General Pace. Sir, we certainly can.
    Mr. Mica. I was told by one of your colleagues down there, 
a couple of National Guard units could come down or some 
technical people, or actually if we don't even want them there 
we could take folks out and train them someplace else to get 
that equipment going, maintained; but you can't have a Plan 
Colombia, you can't have any plan if we can't get it 
operational and get the troops and the equipment back up where 
it needs to go. Can you report to us in some way, some fashion, 
what you need to get that lift capability in place?
    General Pace. Sir, I can certainly report to you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.101
    
    [GRAPHIC] [TIFF OMITTED] T6478.102
    
    Mr. Mica. The same thing with the helicopters. The Hueys, I 
guess, are doing the same thing. Can you do that, General? Some 
plan. My God, you guys, I know you can do it, and any time we 
assign the military and give them an order, they do it. They 
don't whine, they get it done. So I am looking from you what it 
is going to take to get that done, again because the police are 
doing the law enforcement function. But we can't have the 
police function without the military providing the protection 
and also getting equipment and resources there, right?
    General Pace. Sir, it is not yet part of my mission, as you 
know, to do the Colombian Air Force or the Colombian 
helicopters. My mission is to train----
    Mr. Mica. Who do you need permission from to get that? You 
are just training the troops and we have no way to get them 
there?
    General Pace. Sir, I am training the troops.
    Mr. Mica. Who is in charge of the whole thing? Who makes 
the decision?
    General Pace. Sir, that is a policy decision.
    Mr. Mica. Who? Tell me who. Come on. Who would pick up 
the--if someone picked up the phone and called you and said do 
it, who would do it? I mean, I am only 1 of 435. Turn that 
thing off, it bothers me.
    General Pace. Sir, I understand. I am not sure which one of 
your questions to answer first. I will try the last one.
    Mr. Mica. Do you need the Secretary of Defense?
    General Pace. I get my missions from the Secretary of 
Defense, yes, sir; and yes, we can in fact determine on the C-
130's----
    Mr. Mica. We need a letter from the subcommittee to the 
Secretary of Defense. The whole thing won't work if we can't 
get the resources to where they need to go. It is that simple. 
This isn't rocket science. If you were going to fight a war and 
the strategy was only to treat the wounded, what would happen?
    General Pace. I don't understand the context of the 
question, sir.
    Mr. Mica. If you were going to fight a war and you were 
given orders, only treat the wounded, that is your only 
mission, what would happen?
    General Pace. Sir, I presume we would lose the war. But I 
still don't understand the context of the question.
    Mr. Mica. Well, you have answered it. Do you have any say 
or can you get the National Guard involved in any training 
missions?
    General Pace. Sir, the National Guard can be involved in 
these training missions if those assets are provided to me by 
the Secretary of Defense. They don't need, in my opinion, they 
don't need assistance in the Colombian Air Force on how to 
maintain airframes. What they need is assistance with getting 
the parts that they do not have to maintain their Air Force. So 
it is a dollar-and-cents issue, not a training issue.
    Mr. Mica. You are better at this. We were down there for a 
couple of days. You have seen it and your folks have seen it. 
If you can get to us in the next 2 weeks just a list of what it 
would take, and then we will go to whoever provides that.
    One of the things that concerns me, we visited JTF Bravo in 
Honduras, and they told us that they only had permission for 9 
or 10 days for narcotics--anti-narcotics effort, and that order 
came from SOUTHCOM.
    General Pace. Sir----
    Mr. Mica. They are there building hospitals and bridges and 
doing good works and drilling wells and they are doing training 
and other things, but they said that they are limited to 9 or 
10 days, I forget what it was, but a very small number of days 
by SOUTHCOM.
    General Pace. Sir, I am SOUTHCOM, so they get their orders 
from me.
    Mr. Mica. Why is there a limit?
    General Pace. They have a limit on the number of hours they 
can fly per month, sir. The helicopters you saw at Soto Cano 
Air Base in Honduras fly more hours per month than any 
helicopters in the U.S. Army inventory.
    Mr. Mica. Right. We were told that. Why can't they do more 
anti-narcotics work?
    General Pace. Sir, they certainly can. We have an exercise 
called Central Skies.
    Mr. Mica. I love helping people, but, my God, there are 
people dying in our streets. What did we have nine----
    General Pace. Sir, we have 18 helicopters there; 10 are 
Blackhawks that are troop carriers, four are Blackhawk Medivac, 
four are CH-47 heavy lift helicopters. Central Sky, sir, is the 
exercise that in fact is the exercise that we use to conduct 
lift of host nation police and military to eradicate primarily 
marijuana, but now assisting them in being set up to interdict 
cocaine shipments.
    Mr. Mica. And hopefully heroin, too.
    General Pace. Hopefully, sir.
    Mr. Mica. But can you relook at that? Because it seemed 
like we have--I mean, we landed there, and, my God, we had 
helicopters all over the place and resources. We said oh, this 
is great. We said how much of this is being devoted toward 
anti-narcotics efforts. Well, about 10 days. And who made that 
decision? SOUTHCOM.
    General Pace. If I may, sir, there is much more to my 
responsibilities than counter-narcotics. I certainly will take 
a look at that. I have the rest of engagements for all of 
Central America that I have to do with those helicopters.
    Mr. Mica. Again, we are facing a national crisis. How many 
wars do you know where we lost 16,000 Americans in a year on 
our soil? If they were lobbing bombs at us, you guys would sure 
as heck be down there responding.
    OK, FOLs. We don't have--we have a signed agreement with 
Aruba and Curacao, but we don't have the other Netherlands 
approval. Is that doubtful, Mr. Beers, or what do you think?
    Mr. Beers. Sir, I don't think it was doubtful. I thought 
that was signed as well. I will have to get back to you.
    Mr. Mica. No, the Netherlands has not approved it, so we 
can't start any construction.
    Mr. Souder. Their legislature hasn't approved it yet.
    Mr. Mica. The Netherlands Parliament, the local 
authorities, and I guess they are sovereign, but there is the 
connection to the mother country, but the Netherlands 
Parliament has not approved it, and I have been over twice and 
we have talked to them, and I was surprised when I got there 
that it still is in dispute. So we aren't going to put $40 
million in one location and $10 million in another location 
until we have some contract signed, correct?
    Mr. Beers. You have to ask Mr. Newberry and General Pace 
about that, actually.
    General Pace. Sir, we will not expend the money that has 
been allocated to upgrade Aruba and Curacao until the 
government in the Netherlands verifies the treaty.
    Mr. Mica. Curacao, you have to refresh me, is that being 
designed to also take AWACS?
    General Pace. Yes, sir.
    Mr. Mica. Then we visited Manta, and I am told that Manta 
is going to be closed down for 6 months.
    General Pace. Correct, sir.
    Mr. Mica. Of course, with that closed down we do have a 
alternate plan to take up the slack; is that correct?
    General Pace. That is true, sir. Between Curacao itself and 
Compala at El Salvador, although the legs are longer, therefore 
you have less time for the airframe in the target area, you can 
in fact fly from El Salvador, you can fly from Curacao, to get 
to the area.
    Mr. Mica. But we have a plan when we close that to 
reinforce the runway in place to take up for the slack.
    General Pace. That is correct, sir.
    Mr. Mica. I am also concerned we will have plenty of these 
locations for AWACS. In fact, I was told in Honduras you could 
land AWACS on that runway. I think they told me it would take 
the Space Shuttle, it is so big. But then I was told we don't 
have the AWACS to support the mission. What is the plan there?
    General Pace. Sir, like any commander, if you ask me do I 
have enough assets, the answer is no, I do not. However, I feel 
that----
    Mr. Mica. Are we building runways at a cost of $150 million 
or improving them for planes that we don't have?
    General Pace. No.
    Mr. Mica. But you don't have them now?
    General Pace. I have one now, sir, that I have on a 
recurring routine basis, and I am competing with my fellow 
CINCs who have other U.S. responsibilities; and we put our 
requirements on the table, sometimes I get the assets, and 
sometimes someone else with a higher priority gets the assets.
    Mr. Mica. Do you have a request in for an additional AWACS?
    General Pace. Sir, we do. We have a standing request in 
with the Joint Staff that when the asset is available, I can 
utilize two AWACS full-time.
    Mr. Mica. You don't have to give us publicly, but can you 
give the subcommittee a history in the last year, up to date, 
if possible, the use of AWACS in that arena?
    General Pace. Yes, sir.
    Mr. Mica. One last question. I got a report that the Air 
Force has taken down the aerostats on the Gulf Coast of 
Florida. Mr. Newberry, do you know about that?
    Mr. Newberry. Yes, sir, I am aware of that.
    Mr. Mica. What is happening?
    Mr. Newberry. Well, they are not down yet. They are still 
there. As you recall, Congress asked us to put together a 
report with Customs on the aerostat issue.
    Mr. Mica. About transferring them over.
    Mr. Newberry. Transferring them over. In that report also 
their effectiveness, their use, which will also address the 
Gulf State aerostats.
    Mr. Mica. Where are you?
    Mr. Newberry. We are still working the report with Customs.
    Mr. Mica. They are not down?
    Mr. Newberry. They are down for different reasons. They are 
not being closed down at this moment. But, that said, the 
Department of Defense has also a certain amount of funds and 
certain priorities and certain missions----
    Mr. Mica. And this isn't a priority. Who makes that 
decision? Who would say whether they go up or down? Give me a 
name.
    Mr. Newberry. Well, I will give you my name, sir. Bob 
Newberry. Use my name.
    Mr. Mica. Well, there is great concern. I mean, we have 
over-the-horizon radar that takes in certain things. We have 
limited surveillance operations going on out there. We know the 
drug traffickers come in at low altitudes and are not detected 
by some of these gaps.
    Mr. Newberry. That is one of the areas we are looking at. 
In fact, our assessment shows the Gulf Coast routing never has 
been a problem, it is not a problem, and is probably the least 
priority of our problems for transiting drugs into the United 
States.
    Mr. Mica. Could it be because we had them there?
    Mr. Newberry. No, actually they have not been there that 
long. They are probably the last ones that were built. We had a 
lot of pressure from obviously the southeast States and a lot 
of unsubstantiated reports about aircraft trafficking in that 
area. But as of this date, that probably is not an air 
trafficking route into the United States.
    Mr. Mica. OK. We want to see where they can be best 
utilized if they are going to be taken down or transferred. 
Maybe we could get them all to Customs, work together, and then 
utilize them. We do know they are a deterrent, we do know they 
are a great detection source. We do know that drug dealers come 
in under radar and they have the capability to detect some of 
that. So can you give a little report to the chairman of the 
subcommittee and let us know, before anything comes down, or 
what you are going to do with them?
    Mr. Newberry. Sir, the report--we owe you an official 
report to Congress due in May, and nothing will come down 
before that report reaches the Congress.
    Mr. Mica. OK. Staff is screaming behind me that they are 
already down.
    Mr. Newberry. Sir, there are aerostats down all the time 
for different reasons. Hurricanes blow them down, they fall 
down.
    Mr. Mica. Give me a little record. There are no hurricanes 
in this month. I come from Florida. Can you please give us a 
record of when they have been up and down and what they are 
doing with them? Before May.
    Mr. Newberry. The current status of the aerostats.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.103
    
    Mr. Mica. Finally, Mr. Chairman, if you will indulge me, I 
asked General Wilhelm about the status of the Riverine Project, 
because we know when we get them in the air they go to the 
river or to other areas. And this was a hearing, House of 
Representatives, March 12, 1998. He promised to give me a 
quarterly report on what is happening there. The Department of 
Defense, I believe, has been derelict in that. General Pace, 
you have taken over. Can you give us an update on the Riverine 
status, where we are? We had some trouble getting, again, the 
equipment there and getting it operational?
    General Pace. In Colombia, sir?
    Mr. Mica. Sir.
    General Pace. Sir, I will take that for the record to give 
you an accurate answer.
    Mr. Mica. I think we are OK in Peru, but if you could give 
us an update as far as anything we are involved in Riverine 
equipment there.
    The final thing, Mr. Beers, 2 years ago we appropriated 
$300 million for this effort.
    Mr. Beers. Yes, sir, $232.
    Mr. Mica. Right. Is all of that expended?
    Mr. Beers. I will have to get you that report for the----
    Mr. Mica. Can you get us that report?
    Mr. Beers. Yes, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.104
    
    [GRAPHIC] [TIFF OMITTED] T6478.105
    
    Mr. Mica. Then prior to that we have been asking for 
surplus equipment. What number is that? 506 drawdown. Has all 
of that been delivered?
    Mr. Beers. I will get you that for the record. We do report 
that on a regular basis with the Department of Defense and we 
will get you the most updated report on that, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.106
    
    Mr. Mica. Mr. Chairman, the defense rests.
    Mr. Souder. I have some additional questions, and then we 
will wind up.
    First, I would like to ask Mr. Beers on the GAU-19 
ammunition question which we ran into again in Colombia, that 
there is no question that some of the guns are jamming and they 
believe it is because of the ammunition. We heard that Crane 
had given some evaluation that the ammunition that was sent, 
the 50-year-old ammunition, would be workable. Is that where 
you received the information that the ammunition for the GAU-
19s would be workable?
    Mr. Beers. Yes, sir, we did receive that information from 
Crane, and that ammunition is currently being used by the Air 
Force, the Colombian Air Force. They have fired, I think, maybe 
1 million rounds already of that ammunition. It works if you 
turn the select or switch to 1,000 rounds per minute instead of 
2,000 rounds per minute.
    But I would also like to correct, at least from our 
understanding, none of the GAU-19s that the Colombian National 
Police used were down because of this ammunition. They only 
fired it once and that was a test firing. There have been some 
instances in which the GAU-19s are not operating, but it is not 
related to the ammunition.
    Because of that original General Dynamics indication that 
older ammunition shouldn't be used, they have not used it. But 
the Air Force is perfectly prepared to use it for their own 
mini-guns and use it successfully.
    Mr. Souder. For the record, I would like some sort of copy 
of whatever document or information you received from Crane 
that provided that analysis, and also whether or not any 
American units used that type of ammunition with that gun.
    Mr. Beers. All right, sir, we will get that for you. Thank 
you.
    Mr. Souder. Thank you. On the training question, as you 
heard from Congressman Mica, and you have heard from me in 
different forums, there is a concern about the training 
process. You heard from Congresswoman Schakowsky, too, about 
the contracting out. It was still unclear to me from the 
discussion here that prior to the troops going on--in other 
words, SOUTHCOM was providing training for the military units. 
Once they are trained, is there any followup training and is 
anybody working with those units in dealing with problems?
    General Pace. Mr. Chairman, thank you.
    We have had refresher training with the first two 
battalions that were trained, and it would be a normal part of 
a sustainment to send back teams of about 8, 10, 12 individuals 
who assist to make sure that the trainers who we--have been 
trained are still executing properly.
    So although I don't have that planned beyond these three 
battalions into the following year, because that still is a 
resource allocation decision to be made by the current 
administration, that would be a reasonable thing to continue to 
do.
    Mr. Souder. One of the concerns that popped up in a number 
of the testimonies is whether or not there is helicopter pilot 
training; and the helicopter pilots are the largest group 
contracted out, is that correct?
    General Pace. Yes, sir.
    Mr. Beers. With respect to the military helicopters, the 
UH-1N program has been funded and supported by the INL budget 
line. And we have used the INL air wing as the support entity 
that does that, and they do use Dyncorp, and some 
subcontractors actually implement that program in the field.
    We chose that route--that is, we, the U.S. Government chose 
that route, at a time in the fall of 1999, when it was a 
question as to who had the funds and who could move the 
quickest with respect to their authorities in order to 
undertake that program.
    With respect to the Blackhawk program, while we have been 
using State Department funds for the procurement, the training 
of the pilots will be handled by the Department of Defense.
    With respect to the Huey II program for the Colombian Army, 
we are still in the final determination stage as to who will 
execute that and who will fund that, but it will be executed, 
and it will be funded.
    Mr. Souder. I think I can speak for both the conservative 
Republicans and the liberal Democrats. We would like to see 
proposals from the State Department and the Defense Department 
to accelerate the training of Colombians, so we don't have to 
do the contracting out, who are largely Americans.
    Mr. Beers. No, sir, that is not true.
    Mr. Souder. The Dyncorp is not largely Americans.
    Mr. Beers. No, sir. What we have done with respect to the 
UH-1 program, and let me be very clear about this, because it 
is very important, we have U.S. instructor pilots, two of them 
who have been working with that training program. They are only 
permitted to operate in a training mode in a training area. 
They are not permitted to go on operations.
    While it is true that the pilots in some of the seats of 
some of those helicopters are contract pilots, they are not 
U.S. citizens. They are Colombians. They are Colombians who are 
hired out of the private economy, because the Colombian Army 
did not have and does not currently have sufficient pilots to 
man those cockpits. Rather than wait for the time that would be 
necessary in order to train those pilots and make them 
proficient in those cockpits, we went out on the civilian 
economy and found people who had that experience, and they are 
in those cockpits.
    They have been instructed, yes, by INL, but it has been 
coordinated--the program of instruction has been coordinated 
with the U.S. military, and that is who is actually out there 
flying the operational missions, not U.S. people.
    Mr. Souder. So you are saying they are not U.S. Government 
people. Can the Colombian private sector contract with American 
nationals?
    Mr. Beers. I don't know the answer to that, sir, but we are 
controlling that contract, and I am telling you how that 
contract is being controlled.
    Mr. Souder. When the helicopter was shot down and the 
helicopter went in to rescue them, our understanding was that 
those were U.S. pilots, not necessarily government, but U.S. 
nationals.
    Mr. Beers. There are a mix of helicopters that go on every 
mission that is flown with respect to eradication. And with 
respect to the individual helicopter which went in to pick up 
the pilot and crew from the first helicopter, the first 
helicopter that went in was manned entirely by Colombian 
National Police and extracted the pilot, the one who was 
injured, and some of the crew.
    The second helicopter that went in was an aircraft that had 
two medical rescue personnel on it who were private U.S. 
citizens, and I believe one of the pilots in that aircraft was 
a U.S. citizen contract pilot.
    By and large, with respect to the way that the operations 
are run overall, Colombian operations of the Colombian National 
Police which have heretofore, until we got to this operation, 
essentially been focused entirely upon the opium and poppy 
effort have been entirely Colombian operations.
    The coca operations have included U.S. individuals flying 
some, but not all, of the spray airplanes all the time and 
some, but not all, of the accompanying aircraft. That is, the 
helicopters that provide gunship support and they provide 
search and rescue support have been piloted by or copiloted by 
a contract employee who is a U.S. citizen.
    The rescue personnel for this part of the operation have 
been up to this point U.S. citizens. The Colombians have their 
own rescue capability, which they use in association with their 
activities.
    So that, on a day-to-day basis, there are some U.S. 
citizens who are flying some of those support helicopters, but 
it is not a U.S. operation entirely. None of the armament is 
manned by U.S. citizens, and none of the orders for any of the 
arms to fire are made by U.S. citizens. That is entirely a 
Colombian National decision chain, and the operations are in 
every instance commanded overall by Colombians.
    Mr. Souder. I appreciate that clarity for the record.
    I think it is safe to say that in working between the State 
Department, the Defense Department anyway we can make--move 
that toward to a 100 percent Colombian operation, whether it is 
through the military, the State Department, the Guard or 
whoever does the training. That is certainly going to be a 
combined goal of the U.S. Congress.
    We do not need the West Wing scenario that was on TV to 
occur or you will have a political backlash in this whole 
operation.
    This is a country that is a 200-year democracy. It is not 
like Vietnam. They have a military and a national police. They 
have been flooded with narcodollars threatening their country. 
But to the degree that a portion of the program becomes 
critical--I am not criticizing how you got to the point where 
you are now, because we escalated the effort and they are not 
trainees, but to make sure that component is a priority in the 
mix is very important in this package plan, because Americans 
do not like to hear about Americans being on the ground even if 
they are not shooting the gun but being put at risk.
    Mr. Beers. Yes, sir, and that is our objective. I 
appreciate your indulgence in understanding how we got here. 
But that is our objective. And at a meeting of our air wing, 
which I had just this week, I stressed that point again. It is 
our objective that those--the individuals, certainly, that are 
on operational missions be Colombian.
    We will be working with the Colombians in areas for some 
time to come, because of the interface between our logistical 
system in terms of getting things to them and their acceptance 
of that and maintaining of this equipment. So between ourselves 
and the Department of Defense contracts and personnel, we will 
have a presence there. But it is our objective to reduce that 
to the absolute minimum.
    Mr. Souder. Also, in the parts question that we discussed 
earlier, as to who is in charge and how that gets done, 
clearly, we do not want to have--almost every military 
operation in American history, the parts supply and support 
mechanisms are the vital lifeline in whether or not a project 
is going to be successful. And we can't just have the 
helicopters and $300 million in legal building and human rights 
building and not have the supply mechanism in place.
    We understand that this was a quick rampup and 
acceleration, but those questions do need to be focused on. 
Certainly, it will be followed up in the future.
    Mr. Beers. We are fully committed to that, sir.
    Mr. Souder. I also want to make sure that in the budget 
proposal and in the operational execution, some of which 
wouldn't be in a budget proposal, that intelligence operations 
are sufficient. Otherwise, we wind up looking for needles in 
haystacks, and that includes the internal decisions on where to 
put the AWACS. If we are putting $50 million to $60 million up 
in the Netherlands Antilles and over in Manta for facilities 
for AWACS, we need to make sure we have AWACS there, or this is 
an incredible waste of American taxpayer dollars.
    We heard constantly that while we had Rather coverage and 
others in the northern part, there is some concern about East-
West and to make sure that gets in our mix if there needs to be 
additional intelligence capabilities.
    General Pace, and then Mr. Marshal.
    General Pace. Mr. Chairman, thank you very much for the 
opportunity to respond to that. I will provide to the committee 
the information on the AWACS. But, just as you know, there are 
other airframes that utilize those airfields. It is not just 
AWACS specific. It is P3 airplanes and many other types of 
airplanes that collectively assist us. So I will get the data 
about the AWACS to you, but there is much more to it than that, 
as you know, sir.
    Mr. Souder. Yes. I believe that--each location, however--
the runway length and the hanger capacity was costing more 
because we assumed there would be AWACS there and additional 
people.
    General Pace. That is true.
    Mr. Souder. Mr. Marshall.
    Mr. Marshal. If I can followup on your intelligence 
comments, I would like to point out in my earlier answer I said 
there were several iterations of requests for DEA resources, 
but in the final analysis, when we got down to the final push 
for our request in Plan Colombia, all of our requests in 
connection with Plan Colombia were intelligence-related. And, 
if I may, I will submit a detailed itemized listing of those 
for the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6478.107
    
    Mr. Souder. Well, thank you all very much for rearranging 
your schedules on short notice to come today.
    Also, for the record, Ms. Schakowsky asked to put her 
schedule into the record of where she was in Colombia. And 
while Mr. Mica did not get specific, she, in fact, did not meet 
with any of the leftist guerillas, and I think the record 
should show that.
    With that, the hearing stands adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6478.108

[GRAPHIC] [TIFF OMITTED] T6478.109

[GRAPHIC] [TIFF OMITTED] T6478.110

[GRAPHIC] [TIFF OMITTED] T6478.111

[GRAPHIC] [TIFF OMITTED] T6478.112

[GRAPHIC] [TIFF OMITTED] T6478.113

[GRAPHIC] [TIFF OMITTED] T6478.114

[GRAPHIC] [TIFF OMITTED] T6478.115

[GRAPHIC] [TIFF OMITTED] T6478.116

[GRAPHIC] [TIFF OMITTED] T6478.117

[GRAPHIC] [TIFF OMITTED] T6478.118

[GRAPHIC] [TIFF OMITTED] T6478.119

[GRAPHIC] [TIFF OMITTED] T6478.120

[GRAPHIC] [TIFF OMITTED] T6478.121

[GRAPHIC] [TIFF OMITTED] T6478.122

[GRAPHIC] [TIFF OMITTED] T6478.123

[GRAPHIC] [TIFF OMITTED] T6478.124

[GRAPHIC] [TIFF OMITTED] T6478.125

[GRAPHIC] [TIFF OMITTED] T6478.126

[GRAPHIC] [TIFF OMITTED] T6478.127

[GRAPHIC] [TIFF OMITTED] T6478.128

[GRAPHIC] [TIFF OMITTED] T6478.129

[GRAPHIC] [TIFF OMITTED] T6478.130

[GRAPHIC] [TIFF OMITTED] T6478.131

[GRAPHIC] [TIFF OMITTED] T6478.132

[GRAPHIC] [TIFF OMITTED] T6478.133

[GRAPHIC] [TIFF OMITTED] T6478.134

[GRAPHIC] [TIFF OMITTED] T6478.135

[GRAPHIC] [TIFF OMITTED] T6478.136

[GRAPHIC] [TIFF OMITTED] T6478.137

[GRAPHIC] [TIFF OMITTED] T6478.138

[GRAPHIC] [TIFF OMITTED] T6478.139

[GRAPHIC] [TIFF OMITTED] T6478.140

[GRAPHIC] [TIFF OMITTED] T6478.141

[GRAPHIC] [TIFF OMITTED] T6478.142

[GRAPHIC] [TIFF OMITTED] T6478.143

[GRAPHIC] [TIFF OMITTED] T6478.144

[GRAPHIC] [TIFF OMITTED] T6478.145

[GRAPHIC] [TIFF OMITTED] T6478.146

[GRAPHIC] [TIFF OMITTED] T6478.147

[GRAPHIC] [TIFF OMITTED] T6478.148

[GRAPHIC] [TIFF OMITTED] T6478.149

[GRAPHIC] [TIFF OMITTED] T6478.150

[GRAPHIC] [TIFF OMITTED] T6478.151

[GRAPHIC] [TIFF OMITTED] T6478.152

[GRAPHIC] [TIFF OMITTED] T6478.153

[GRAPHIC] [TIFF OMITTED] T6478.154

[GRAPHIC] [TIFF OMITTED] T6478.155

[GRAPHIC] [TIFF OMITTED] T6478.156

[GRAPHIC] [TIFF OMITTED] T6478.157

[GRAPHIC] [TIFF OMITTED] T6478.158

[GRAPHIC] [TIFF OMITTED] T6478.159

                                   - 

</pre></body></html>
